<html>
<title> - CLOSING THE ACHIEVEMENT GAP IN AMERICA'S SCHOOLS: THE NO CHILD LEFT BEHIND ACT</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]


 
  CLOSING THE ACHIEVEMENT GAP IN AMERICA'S SCHOOLS: THE NO CHILD LEFT 
                               BEHIND ACT

=======================================================================

                                HEARING

                               before the

                         COMMITTEE ON EDUCATION
                           AND THE WORKFORCE
                     U.S. HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                               __________

                           September 29, 2005

                               __________

                           Serial No. 109-25

                               __________

  Printed for the use of the Committee on Education and the Workforce



 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house
                                   or
            Committee address: http://edworkforce.house.gov


                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
23-691                      WASHINGTON : 2006
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                COMMITTEE ON EDUCATION AND THE WORKFORCE

                    JOHN A. BOEHNER, Ohio, Chairman

Thomas E. Petri, Wisconsin, Vice     George Miller, California
    Chairman                         Dale E. Kildee, Michigan
Howard P. ``Buck'' McKeon,           Major R. Owens, New York
    California                       Donald M. Payne, New Jersey
Michael N. Castle, Delaware          Robert E. Andrews, New Jersey
Sam Johnson, Texas                   Robert C. Scott, Virginia
Mark E. Souder, Indiana              Lynn C. Woolsey, California
Charlie Norwood, Georgia             Ruben Hinojosa, Texas
Vernon J. Ehlers, Michigan           Carolyn McCarthy, New York
Judy Biggert, Illinois               John F. Tierney, Massachusetts
Todd Russell Platts, Pennsylvania    Ron Kind, Wisconsin
Patrick J. Tiberi, Ohio              Dennis J. Kucinich, Ohio
Ric Keller, Florida                  David Wu, Oregon
Tom Osborne, Nebraska                Rush D. Holt, New Jersey
Joe Wilson, South Carolina           Susan A. Davis, California
Jon C. Porter, Nevada                Betty McCollum, Minnesota
John Kline, Minnesota                Danny K. Davis, Illinois
Marilyn N. Musgrave, Colorado        Raul M. Grijalva, Arizona
Bob Inglis, South Carolina           Chris Van Hollen, Maryland
Cathy McMorris, Washington           Tim Ryan, Ohio
Kenny Marchant, Texas                Timothy H. Bishop, New York
Tom Price, Georgia                   John Barrow, Georgia
Luis G. Fortuno, Puerto Rico
Bobby Jindal, Louisiana
Charles W. Boustany, Jr., Louisiana
Virginia Foxx, North Carolina
Thelma D. Drake, Virginia
John R. ``Randy'' Kuhl, Jr., New 
    York

                    Paula Nowakowski, Staff Director
                 John Lawrence, Minority Staff Director


                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on September 29, 2005...............................     1

Statement of Members:
    Boehner, Hon. John A., Chairman, Committee on Education and 
      the Workforce..............................................     1
        Prepared statement of....................................     3
    Kildee, Dale E., Substitute Ranking Member, Committee on 
      Education and the Workforce................................     4
    Porter, Hon. Jon C., a Representative in Congress from the 
      State of Nevada, prepared statement of.....................    46

Statement of Witnesses:
    Haycock, Ms. Kati, Director, the Education Trust.............    32
        Prepared statement of....................................    34
        Additional responses submitted...........................    46
    Jewell-Sherman, Dr. Deborah, Superintendent, Richmond Public 
      Schools....................................................    27
        Prepared statement of....................................    30
        Additional responses submitted...........................    47
    Spellings, Hon. Margaret, Secretary, U.S. Department of 
      Education..................................................     5
        Prepared statement of....................................     9



                     CLOSING THE ACHIEVEMENT GAP IN
                    AMERICA'S SCHOOLS: THE NO CHILD
                            LEFT BEHIND ACT

                              ----------                              


                      Thursday, September 29, 2005

                     U.S. House of Representatives

                Committee on Education and the Workforce

                             Washington, DC

                              ----------                              

    The committee met, pursuant to notice, at 10:03 a.m., in 
room 2175, Rayburn House Office Building, Hon. John A. Boehner 
[chairman of the committee] presiding.
    Present: Representatives Boehner, Petri, McKeon, Castle, 
Ehlers, Biggert, Tiberi, Osborne, Wilson, Kline, McMorris, 
Marchant, Price, Fortuno, Boustany, Foxx, Drake, Miller, 
Kildee, Owens, Payne, Scott, Woolsey, Hinojosa, McCarthy, 
Tierney, Kind, Kucinich, Holt, Mrs. Davis of California, 
McCollum, Mr. Davis of Illinois, Grijalva, Van Hollen, Bishop, 
and Barrow.
    Staff present: Amanda Farris, Professional Staff Member; 
Richard Hoar, Professional Staff Member; Lucy House, 
Legislative Assistant; Kimberly Ketchel, Communications Staff 
Assistant; Sally Lovejoy, Director of Education and Human 
Resources Policy; Alexa Marrero, Deputy Communications 
Director; Emily Porter, Coalitions Director for Education 
Policy; Deborah L. Emerson Samantar, Committee Clerk/Intern 
Coordinator; Kevin Smith, Communications Director; Jo-Marie St. 
Martin, General Counsel; Rich Stombres, Assistant Director of 
Education and Human Resources Policy; Ellynne Bannon, 
Legislative Association/Education; Denise Forte, Legislative 
Associate/Education; Ruth Friedman, Legislative Association/
Education; Lauren Gibbs, Legislative Associate/Education; Lloyd 
Horwich, Legislative Association/Education; Ricardo Martinez, 
Legislative Associate/Education; Joe Novotny, Legislation 
Assistant/Education; and Mark Zuckerman, Minority Staff 
Director.
    Chairman Boehner. A quorum being present, the Committee on 
Education and Workforce will come to order.
    We are holding this hearing this morning to hear testimony 
on ``Closing the Achievement Gap in America's Schools: the No 
Child Left Behind Act.''
    Under the committee rules, opening statements are limited 
to the chairman and ranking member. Therefore, if other members 
have written opening statements, they will be included in the 
hearing record, and with that, I ask unanimous consent for the 
hearing record to remain open for 14 days to allow member 
statements and other material referenced during this hearing 
this morning to be made part of the official hearing record. 
Without objection, so ordered.
    Let me say good morning to all of you, and thank you for 
joining on the historic No Child Left Behind education reform 
initiative and its implementation.
    I am pleased to welcome Education Secretary Margaret 
Spellings for her first opportunity to testify before the 
committee since being sworn in as the eighth Education 
Secretary of the United States.
    We are welcoming Secretary Spellings for her first official 
testimony, but we are also welcoming her back to the committee. 
Two weeks ago, Secretary Spellings and Secretary of Labor 
Elaine Chao were here to brief members of the committee on the 
relief efforts underway for the victims of the hurricanes in 
the Gulf Coast region, and I would like to thank the Secretary 
for her willingness to brief both Republican and Democrat 
members of this committee, and for the ongoing efforts by the 
Department of Education to address the needs of students in 
schools impacted by these hurricanes, but today we are here to 
discuss the implementation of No Child Left Behind.
    This is not a new topic for this committee. In fact, we 
have held a series of hearings since NCLB was signed into law 
by President Bush in January of 2002 to examine all facets of 
the law's implementation, and from local flexibility and new 
parental options to teacher equality and accountability, this 
committee has continued to examine how states and local schools 
are implementing this bipartisan initiative to close the 
education gap and the achievement gap in America's schools.
    It has been nearly four years since NCLB was signed into 
law in Hamilton, Ohio, in my district. In that time, the law 
has precipitated a fundamental shift in America's education 
system.
    We are seeing a culture of accountability take hold, one 
that is producing significant gains in student achievement, 
particularly among disadvantaged students who were once allowed 
to fall between the cracks.
    In July, the results of the National Assessment of 
Educational Progress, known as the Nation's Report Card, showed 
the highest levels of student achievement in the history of the 
long-term trend analysis, and larger gains amongst minority 
students in the last five years than in the previous three 
decades.
    No Child Left Behind called for the most sweeping education 
reforms in a decade, and so, it is no surprise that its 
implementation has seen a few bumps along the road. It is those 
bumps along the road, those challenges that have cropped up 
over time, that reinforce the importance of the law's inherent 
flexibility.
    No Child Left Behind is not a rigid, one-size-fits-all 
approach to improving our schools. The law is grounded in 
flexibility and local control. No one has demonstrated that 
more effectively than Secretary Spellings.
    Since enactment of NCLB, the Department of Education has 
provided significant flexibility to states and local 
communities to meet the goals of the law.
    Flexibility has been provided for children with 
disabilities, children with limited English proficiency, highly 
qualified teachers, participation rates, and supplemental 
education services, and I welcome this flexibility, 
particularly because it has been provided to address specific 
challenges while maintaining the core principles of the law.
    Flexibility must not be confused with weakening the law's 
demand that all children be given a high-quality education, and 
we will not compromise on that idea that no child should be 
left behind.
    Today we will hear from Secretary Spellings on how states 
and schools are working to close the achievement gap, using the 
tools provided by NCLB. We will hear from the superintendent of 
the Richmond, Virginia, public school system to learn firsthand 
what is happening at the grassroots level, and we will hear 
from the director of The Education Trust, a group focused on 
improving academic achievement, to gain a perspective of an 
independent organization on how the implementation of NCLB is 
progressing.
    I hope to learn more about what No Child Left Behind has 
done to transform our nation's schools. I also hope to begin 
asking questions about the future of No Child Left Behind, 
because when the law comes due for reauthorization, this 
committee should have in its possession the knowledge and 
insight that come with ongoing review.
    We have not stopped asking questions about how the law is 
working and what it means for children, parents, teachers, and 
schools, and in the coming months, we will continue to examine 
the progress of No Child Left Behind and its implementation in 
order to begin to lay the ground work for the law's future 
reauthorization.
    I want to thank Representative Miller for his continued 
commitment to the principles of No Child Left Behind. He and I 
don't always agree, but on this issue, I think I am proud--I 
don't think, I am proud to stand behind him unwavering in our 
belief that all children deserve a high-quality education, and 
I look forward to working with him today and in the future as 
we assess what No Child Left Behind has meant for our nation's 
schools and what possibilities lay ahead, and with that, I 
would like to yield to my friend from Michigan, the substitute 
ranking member today, Mr. Kildee.
    [The prepared statement of Chairman Boehner follows:]

  Prepared Statement of Hon. John A. Boehner, Chairman, Committee on 
                      Education and the Workforce

    Good morning, and thank you all for joining us for this hearing on 
the historic No Child Left Behind education reform initiative and its 
implementation. I'm pleased to welcome Education Secretary Margaret 
Spellings for her first opportunity to testify before the Committee 
since being sworn in as the eighth Education Secretary of the United 
States.
    We're welcoming Secretary Spellings for her first official 
testimony, but we're also welcoming her back to the Committee. Two 
weeks ago, Secretary Spellings joined Secretary of Labor Elaine Chao to 
brief members of this committee on the relief efforts underway for the 
victims of the hurricanes in the Gulf Coast region. I'd like to thank 
the Secretary for her willingness to brief both Republican and Democrat 
members of this committee, and for the ongoing efforts by the 
Department of Education to address the needs of the students and 
schools impacted by these hurricanes.
    Today we're here to discuss implementation of the No Child Left 
Behind Act. This is not a new topic for this committee. In fact, we've 
held a series of hearings since NCLB was signed into law by President 
Bush in January 2002 to examine all facets of the law's implementation. 
From local flexibility and new parental options to teacher quality and 
accountability, this committee has continued to examine how states and 
local schools are implementing this bipartisan initiative to close the 
achievement gap in our nation's schools.
    It has been nearly four years since NCLB was signed into law in 
Hamilton, Ohio. In that time, the law has precipitated a fundamental 
shift in America's educational system. We're seeing a culture of 
accountability take hold; one that is producing significant gains in 
student achievement, particularly among disadvantaged students who were 
once allowed to fall between the cracks. In July, the results of the 
National Assessment of Educational Progress (NAEP), known as ``the 
Nation's Report Card,'' showed the highest levels of student 
achievement in the history of the long-term trends analysis, and larger 
gains among minority students in the last five years than in the 
previous three decades.
    No Child Left Behind called for the most sweeping educational 
reforms in a decade, so it's no surprise that its implementation has 
seen a few bumps along the road. It is those bumps along the road, 
those challenges that have cropped up over time, that reinforce the 
importance of the law's inherent flexibility. No Child Left Behind is 
not a rigid, one-size-fits-all approach to improving our schools--the 
law is grounded in flexibility and local control. No one has 
demonstrated that more effectively than Secretary Spellings.
    Since enactment of NCLB, the Department of Education has provided 
significant flexibility to states and local communities working to meet 
the goals of the law. Flexibility has been provided for children with 
disabilities, children with limited English proficiency, highly 
qualified teachers, participation rates, and supplemental educational 
services. I welcome this flexibility, particularly because it has been 
provided to address specific challenges while maintaining the core 
principles of the law. Flexibility must not be confused with weakening 
the law's demand that all children be given a high quality education. 
We will not compromise on the idea that no child should be left behind.
    Today, we will hear from Secretary Spellings on how states and 
schools are working to close the achievement gap using the tools 
provided by NCLB. We'll hear from the superintendent of the Richmond, 
VA public school system to learn first hand what is happening at the 
grassroots level. And we'll hear from the Director of the Education 
Trust, a group focused on improving academic achievement, to gain the 
perspective of an independent organization on how the implementation of 
NCLB is progressing.
    I hope to learn more about what No Child Left Behind has done to 
transform our nation's schools. I also hope to begin asking questions 
about the future of NCLB. When the law comes due for reauthorization, 
this committee will have in its possession the knowledge and insight 
that come with ongoing review. We have not stopped asking questions 
about how the law is working and what it means for children, parents, 
teachers, and schools. In the coming months, we will continue to 
examine the progress of NCLB implementation, and begin to lay the 
groundwork for the law's future.
    I'd like to thank Rep. Miller for his continued commitment to the 
principles of NCLB. He and I don't always agree, but on this issue, I'm 
proud to stand beside him, unwavering in our belief that all children 
deserve a high quality education. I look forward to working with him 
today and in the future as we assess what No Child Left Behind has 
meant for our nation's schools and what possibilities lay ahead.
                                 ______
                                 
    Mr. Kildee. Thank you, Mr. Chairman.
    Secretary Spellings, we appreciate you being here. I 
enjoyed sharing a cup of coffee with you this morning.
    I was here when we established the Department of Education, 
so I have known every secretary since that time. I think it was 
a great idea to establish the department, and I want to commend 
you in coming aboard and looking at No Child Left Behind.
    The bill, as we all know, was written on Capitol Hill, not 
Mount Sinai. So there are areas that we may have to go back and 
touch, but you have been able to, within the bill, show a 
certain sensitivity on finding flexibility, and I think that is 
very, very important.
    I think you have heard the voice from people out in the 
field there, and where you could find flexibility within the 
law, you have found that, and I think you have done it in a 
very sensitive and positive way, and I look forward to working 
with you.
    Chairman Boehner. The Hon. Margaret Spellings was confirmed 
as our nation's eighth Secretary of Education on January 20th 
of this year.
    During President George W. Bush's first term, she also 
served as assistant to the President for domestic policy, where 
she helped craft education policies, including No Child Left 
Behind.
    Prior to arriving in Washington, Secretary Spellings worked 
for six years as Governor Bush's senior advisor with 
responsibility for developing and implementing the Governor's 
education policy.
    She also served as the associate executive director for the 
Texas Association of School Boards.
    Before the Secretary begins, I want to note that, while 
members may have many questions about the administration's 
response to Hurricanes Katrina and Rita, the focus of this 
hearing this morning is on the implementation of No Child Left 
Behind.
    We had members together with the secretaries two weeks ago, 
and we had a little coffee upstairs for members, and I just 
want everyone to try to stay focused on the subject matter here 
today, and the Secretary has to leave us at approximately 11:15 
this morning, and so, I want to make sure we get through as 
many members as possible.
    So with that, Madam Secretary, it is all yours.

 STATEMENT OF HON. MARGARET SPELLINGS, SECRETARY OF EDUCATION, 
                  U.S. DEPARTMENT OF EDUCATION

    Secretary Spellings. You are right, this is my first time 
to visit with you all in this setting, and I hope it won't be 
my last. I hope you will invite me back.
    Thank you very much for having me this morning. I am 
grateful to you to be here.
    I obviously have had the--during the last few weeks--the 
opportunity to visit the Gulf coast several times, and of 
course, we have all witnessed terrible destruction and heart-
warming acts of generosity, and if you will indulge me, I want 
to say just a few words about that before we talk about No 
Child Left Behind.
    I am gratified, of course, by the communities and schools 
all over the country, now 49 states and the District of 
Columbia, that have opened their hearts and their schools to 
displaced students, but of course, I'm not surprised--and I 
know you are not either--that America's educators are showing 
us all what a treasure they are.
    After the pictures we have seen on television and the looks 
we have seen on children's faces, one thing I know for sure is 
that every single one of these children, and all of our 
children, deserve a high-quality education, or having what 
educators call a teachable moment, which you know is an 
opportunity to learn from and act on the moment that we are in, 
and Rita and Katrina are reminders to every single one of us 
that no child must be left behind.
    That includes, of course, hundreds of thousands of children 
who are displaced from their homes and schools. Our goal at the 
Department of Education is to make sure these students get a 
quality education wherever they are. We know that school is a 
stabilizing influence for children and families who are working 
to rebuild their lives, and we are staying in close contact 
with educational leaders throughout the Gulf coast and around 
the country.
    I am asking the Congress to waive some authority on 
statutory and regulatory requirements, except those related to 
civil rights or safety, that may slow down our ability to help 
students and school systems recover from this disaster.
    I can talk a little bit about the waivers I have already 
granted.
    You all, I know, are interested in flexibility, but there 
are areas where I will need additional authorities.
    States and school districts are welcoming these students, 
and they will face, of course, unexpected costs this year.
    To make sure they are adequately compensated, the President 
has proposed that Congress provide up to $7,500 per student in 
Federal funds over the current school year. Under this 
proposal, the department would increase our investment for one 
year from about 9 percent to 90 percent of a state's per-pupil 
expenditure.
    We want to provide equal opportunity for every school that 
is welcoming these children, including public and private 
schools, and we must ensure that displaced students receive a 
quality education, and in many areas, private schools are 
enrolling children the public school systems simply cannot 
accommodate.
    About 25 percent of students in the hardest-hit Louisiana 
communities attended private school, compared to roughly 10 
percent average nationally, and we must not penalize parents 
who had already chosen private schools for their children or 
penalize any school of any kind for a commitment to students.
    Today, I am announcing two actions that will give 
dramatically impacted schools and districts flexibility for one 
year only on certain aspects of adequate yearly progress. Let 
me stress that, under both options, every displaced student 
will be tested, and the results will be made public to ensure 
that every child gets the attention he or she needs and 
deserves.
    Schools must welcome these children with both compassion 
and high expectations.
    We believe the best way to accomplish this goal will be to 
allow those schools and districts to report the results for 
hurricane-displaced students as a separate student subgroup or 
group of students, as we do throughout No Child Left Behind.
    Using their good judgment and criteria I will release 
today, states that were seriously affected by this tragedy may 
also exercise the delay provisions that currently exist as part 
of No Child Left Behind without seeking a waiver from the 
department.
    These provisions could temporarily delay certain schools 
and districts from moving forward in the school improvement 
time-line, even if they do not make annual yearly progress, for 
this school year only.
    As you know, when I came into office, I pledged to 
implement No Child Left Behind in a sensible, workable way, but 
we must not compromise on what I call the bright line 
principles of the law: annual assessment, disaggregation of 
data, and closing the achievement gap by 2014.
    Thanks to our nation's latest education report card, as you 
mentioned, Mr. Chairman, we now have proof that high standards 
and accountability are paying off. Scores are at all-time highs 
for African-American and Hispanic students, especially in the 
early grades. We have made--and I want to linger on this for a 
second--more progress in the last five years than the previous 
30 years combined on our nation's report card.
    This test was created in the early '70s, 1971 and 1973, in 
math and reading, and we have seen the same amount of progress 
between 1999 and 2004 as we did in the entire previous history 
of the report card. Clearly, we are on the right track. The law 
is working.
    At the same time, I have been listening to the concerns of 
parents, educators, and policy makers closest to our students.
    As you know and as you said, I have worked in education 
policy at the state, local, and now the national level for more 
than 20 years, and I have respect for the issues we wrestle 
with at each of these levels.
    Nobody I know has ever passed a perfect law, except for 
you, Mr. Chairman. Implementing public policy, as we all know, 
is very much an organic process, and it is right and righteous 
for us to learn from our experience as we move forward.
    For example, in the 2003-2004 school year, about 2 million 
students across the country were eligible for free high-quality 
tutoring or supplemental services. Unfortunately, only about 10 
to 20 percent of those actually received the services. We 
needed a new approach. So the department worked with people on 
the front lines to come up with one.
    I recently announced a series of pilot agreements that will 
make it easier for certain districts, like Chicago, to provide 
free tutoring even if they haven't been identified as needing 
improvement, as many school districts do.
    In return for this flexibility, the districts will ensure 
that more children receive the services from the provider their 
parents feel comfortable with and families have more choices, 
more conveniently located, and more opportunities to enroll and 
access those services.
    My hope is that increased flexibility will lead to 
increased participation in after-school tutoring and increased 
achievement for children.
    After testing some theories with this pilot, we will have a 
better recipe for students' success, and you will have more 
information as we had into reauthorization.
    The department has also taken a number of steps in response 
to the educational community's concerns and policy maker's 
concerns across the country, including convening a working 
group that explores appropriate and meaningful approaches to 
measure the progress of children who have not grown up speaking 
English and working with states that want to develop more 
appropriate modified tests for students with disabilities who 
need additional time and intensive instruction to reach grade 
level.
    We are also considering the notion of a growth model, where 
schools get credit for progress over time, but I must be clear 
about that.
    To have a sound growth model system, we must have annual 
data, and students in every subgroup must be closing the 
achievement gap.
    No Child Left Behind is provoking a lot of discussion about 
how we can best help the most students, particularly our 
neediest students. We are learning from our experiences and 
from the research as it develops. Our ongoing conversations 
about remaining issues are right and appropriate.
    If this act had not become law, I am not sure we would be 
having these conversations about some of the implementational 
issues that are before us. Before No Child Left Behind, 
students were too often shuffled from grade to grade without 
knowing how to read or do math.
    It is right and righteous that the law focused on those two 
key areas, and the next step is to take high standards and 
accountability, these principles that are working, into our 
high schools. If the hurricanes show us anything, they show how 
vulnerable we are.
    As the international playing field gets flatter, American 
students need better education and training to compete.
    In our global economy, more than 80 percent of the fastest 
growing jobs will require education or training beyond high 
school.
    Unfortunately, five out of 10 minority students and three 
out of 10 overall don't finish high school on time.
    The one million students who drop out of high school each 
year cost our nation more than $260 billion in lost wages, lost 
taxes, and lost productivity over their lifetimes.
    In Federal dollars, that will buy you 10 years of research 
at the National Institutes of Health.
    Business, political, and education leaders are regularly 
sounding the alarm.
    When we lose a million students a year, it is a tremendous 
impact on our economy, but it also represents the American 
dream denied for many, many people.
    High school reform is not just an education issue. It is an 
economic issue, a civic issue, a social issue, and a national 
security issue, and of course, it is all of our issue. 
America's report card has shown no progress for high school 
students in 30 years.
    We must focus on more rigor, particularly in reading, math, 
and science, to help more of our students reach the finish line 
on time and ready for college or work. Progress for older 
students begins with high standards and accountability.
    With No Child Left Behind, President Bush and, of course, 
all of you in the Congress led our national to an historic 
commitment to give every child a quality education. We looked 
ourselves in the mirror and said we would close the achievement 
gap by 2014 across the board. It is our mission and the right 
thing to do. Our children and country deserve no less.
    Thank you, Mr. Chairman, for the opportunity to be here. I 
will be glad to answer any questions you may have.
    [The prepared statement of Secretary Margaret Spellings 
follows:]

    Prepared Statement of Hon. Margaret Spellings, Secretary, U.S. 
                        Department of Education

    Mr. Chairman and Members of the Committee, thank you for this 
opportunity to meet with you. During the last few weeks I've made 
several visits to the Gulf Coast. We've all witnessed both terrible 
destruction and heart-warming acts of generosity. I am gratified by the 
communities and schools that are opening their doors--and their 
hearts--to displaced students. But I'm not surprised; educators are 
simply showing America once again what a treasure they truly are.
    After the pictures we've all seen on television, and the looks on 
these children's faces, one thing I know for sure is that these young 
people need and deserve a quality education. In fact, we're having what 
educators call ``a teachable moment''--an opportunity to learn from * * 
* and act on * * * the moment we're in. Katrina and Rita are reminders 
to all of us that every single one of our children must be given the 
opportunity to learn and the chance to share in the American dream.
    That includes hundreds of thousands of children who were displaced 
from their homes and schools. Our goal at the Department of Education 
is to make sure these students get a quality education wherever they 
are. We know that school is a stabilizing influence for both children 
and families who are working to rebuild their lives. We are staying in 
close contact with educational leaders throughout the Gulf Coast 
region, and I have asked Congress for authority to waive statutory or 
regulatory requirements--except those related to civil rights or 
safety--that may slow down our ability to help students and school 
systems recover from this disaster.
    The states and school districts that are welcoming these students 
will face unexpected costs this year. To make sure they are adequately 
compensated, the President has proposed that Congress provide up to 
$7,500 per student in federal funds over the current school year. Under 
this proposal, the Department would increase our investment from about 
9 percent to 90 percent of a state's per-pupil expenditure for one year 
only.
    We want to provide equal opportunity for every school that is 
welcoming these children-including public and private schools. We must 
ensure that displaced students receive a quality education, and in many 
areas, private schools are enrolling children the public school systems 
simple cannot accommodate.
    About 25 percent of students in the hardest-hit Louisiana 
communities attended private school. That's compared to our national 
average of roughly 10 percent. We must not penalize the parents who had 
already chosen private schools for their children. And we must not 
penalize any school of any kind for its commitment to these students.
    Today I am announcing two actions that will give dramatically 
impacted schools and districts flexibility for one year only on certain 
aspects of adequate yearly progress. Let me stress that under both 
options, every displaced student will be tested, and the results will 
be made public to ensure that every child gets the attention he or she 
needs and deserves. Schools must welcome these children with both 
compassion and high expectations.
    We believe the best way to accomplish this goal will be to allow 
those schools and districts to report the results for hurricane-
displaced students as a separate subgroup, or group of students. Using 
their good judgment and criteria I released today, states that were 
seriously affected by this tragedy may also exercise the delay 
provisions of the No Child Left Behind Act without seeking a waiver 
from the Department. These provisions would temporarily delay certain 
schools and districts from moving forward in the school improvement 
timeline, even if they do not make annual yearly progress.
    As you know, when I came into office, I pledged to implement No 
Child Left Behind in a sensible, workable way. But we must not 
compromise on the ``bright line'' principles of the law-annual 
assessment, disaggregating data, and closing the achievement gap by 
2014. Thanks to our Nation's latest education report card, we now have 
proof that high standards and accountability are paying off. Scores are 
at all-time highs for African-American and Hispanic students, 
especially in the early grades. We've made more progress in the last 5 
years than in the previous 30 combined.
    Clearly, we are on the right track. The law is working. At the same 
time, I have been listening to the concerns of parents, educators, and 
policymakers closest to our students. As you may know, I have worked in 
education policy at state, local, and now the national level for more 
than 20 years, and I have respect for the issues we wrestle with at 
each of those levels. Nobody I know has ever passed a perfect law. 
Implementing public policy is an organic process.
    For example, in the 2003-04 school year, about two million students 
across our country were eligible for free, high-quality tutoring. 
Unfortunately, only about 10-20 percent of them actually received the 
services. We needed a new approach, so the Department worked with 
people on the front lines to come up with one.
    I recently announced a series of pilot agreements that will make it 
easier for certain districts, like Chicago, to provide free tutoring--
even if they have been identified as ``needing improvement,'' as many 
school districts are. In return for this flexibility, the districts 
will ensure that more children receive services--from the provider 
their parents feel most comfortable with. And families will have more 
choices, more convenient locations, and more opportunities to enroll.
    My hope is that increased flexibility will lead to increased 
participation in after-school tutoring and increased achievement for 
children. After testing some theories with this pilot, we will have a 
better recipe for student success.
    The Department has also taken a number of other steps in response 
to the educational community's concerns, including:
    * convening a special working group that is exploring appropriate 
and meaningful approaches to measure the progress of children who have 
not grown up speaking English, and
    * working with States that want to develop more appropriate 
``modified tests'' for students with disabilities who may need 
additional time and intensive instruction to reach grade level.
    * We are also considering the notion of a growth model, where 
schools would get credit for progress over time. But I must be clear--
to have a sound growth model system, you must have annual data, and 
students in every subgroup must be closing the achievement gap.
    No Child Left Behind is provoking a lot of discussion about how we 
can best help the most students. We are learning from our experiences 
and from the research as it develops. Our ongoing conversations about 
remaining issues are right and appropriate. If this Act had not become 
law, I'm not sure we would be having these conversations.
    Before No Child Left Behind, students were too often shuffled from 
grade to grade without knowing how to read or do math. It's right and 
righteous that the law focused on those two key areas. The next step is 
to take high standards and accountability into our high schools.
    If the hurricanes show us anything, they show how vulnerable we 
are. As the international playing field gets flatter, American students 
need better education and training to compete. In our global economy, 
more than 80 percent of the fastest-growing jobs will require education 
or training beyond high school. Unfortunately, 5 out of 10 minority 
students--and 3 out of 10 overall--don't even finish high school on 
time!
    The 1 million students who drop out of high school each year cost 
our nation more than $260 billion dollars * * * That's in lost wages, 
lost taxes, and lost productivity over their lifetimes. In federal 
dollars, that will buy you 10 years of research at the National 
Institutes of Health.
    Business, political, and education leaders are regularly sounding 
the alarm. When we lose a million students every year * * * that's a 
tremendous impact on our economy. And it represents the American Dream 
* * * denied.
    High school reform is not just an ``education issue.'' It's an 
economic issue, a civic issue, a social issue, and a national security 
issue. And * * * it's everybody's issue.
    America's report card has shown no progress for high school 
students in 30 years. We must focus on more rigor--particularly in 
reading, math, and science--to help more of our students reach the 
finish line on time, and ready for college or work. Progress for older 
students begins with high standards and accountability.
    With No Child Left Behind, President Bush and you in the Congress 
led our nation in an historic commitment to give every child a quality 
education. We looked ourselves in the mirror and said we would close 
the achievement gap by 2014 * * * across the board.
    It's our mission, and it's also the right thing to do. Our children 
and our country deserve no less.
                                 ______
                                 
    Chairman Boehner. Madam Secretary, thank you for your 
testimony, and we really do appreciate the fact that you are 
here this morning.
    I certainly think that we are on track and moving in the 
right direction, and let me illustrate a point that you 
mentioned about the needs of our economy in the future, but let 
me begin with where we have been.
    In 1960, about 20 percent of our workforce needed education 
and/or skills. Our economy required that about 20 percent of 
our workers needed education and/or skills, and our education 
system was good enough.
    Today, about 60 percent of our needs in the economy--about 
60 percent of our workers need education/skills. Unfortunately, 
our education system isn't providing the even 60 percent of the 
workforce that is needed today. That is why there are some 
three or four million jobs in America that are going begging 
today, because American companies can't find people with the 
skills and/or education in order to fill those jobs. We are not 
very far away from the number the Secretary pointed out.
    By 2020, 80 percent of our workers in this country are 
going to need an education and/or skills in order to compete in 
the worldwide economy that we find ourselves in, and while I am 
clearly concerned about our economy, clearly concerns about 
making sure that our students and our citizens have the skills 
they need, there is something even more important here, and 
that is that, as our society, every person ought to have the 
ability and the right to grow as much as they can in terms of 
growing their own human dignity, and you know, there has been a 
lot of talk about rights, and I think you have heard me and Mr. 
Miller and others describe education as the new civil right of 
the 21st century, and so, I am--as you can tell, I get pretty 
wound up about this, and so, while No Child Left Behind is not 
perfect, Madam Secretary, one of the most difficult parts of it 
is the whole idea of adequate yearly progress and getting to 
100-percent proficiency by 2014, and a lot of educators around 
the country, parents, others, have stopped me and said, well, 
this is just not realistic, and I have told them that clearly 
this is our goal.
    Well, we can never get to 100 percent. I said, well, what 
do you want us to write into law? Ninety-five percent? You can 
throw 5 percent of your kids overboard. They don't count.
    So one of the most challenging aspects of future 
reauthorization is going to be how do we better quantify, how 
do we better define what it is we are expecting, and I have 
talked to a lot of states about the growth model.
    I think there is some merit in the growth model, but it has 
got to be pegged to something, and so, showing growth from year 
to year, the same kids, clearly makes more sense than comparing 
this group of fourth graders to last year's fourth graders, but 
pegged to what, and I know that you have been working on this 
and you have been talking to educators like we have.
    What are your thoughts about AYP and 100-percent 
proficiency and how we might deal with this?
    Secretary Spellings. Well, I completely agree with you 
about both the 100-percent expectation, all children, with very 
few exceptions to that with respect to the most severely and 
profoundly handicapped students, of course, as well as having 
it pegged to some point in time, and I think what is implied 
here, then, is the need to accelerate instruction, that we must 
make more progress some years than others, or to accelerate our 
instruction into that goal.
    So I think that is going to take more time on task, as 
educators talk about it. This is what supplemental services are 
about.
    This is what some of the most effective schools and most 
effective charter schools do, they work harder, and some 
students are going to take longer to get to proficiency levels, 
and we need to find ways for more strategic intervention, more 
time on task, potentially, as we have done with supplemental 
services--that is what that is all about, essentially--so that 
we can get to the goal line, but you know, it is one of the 
things that I am most concerned about when I hear the press 
talk about it, educators.
    You know, I hope that the teacher who is standing in front 
of my child today believes that she is one of the kids that can 
achieve on grade level.
    The President says it is not too much to ask students to 
achieve on grade level, by state standards, locally determined 
and measured, aligned to the curriculum. That really is not too 
much to ask of our country and of our children.
    Chairman Boehner. If I can make one more comment before my 
time is expired, the concern about what is happening in our 
high schools--clearly, I and other members and other people 
share the concerns about what is happening in our high schools 
and the fact that we are losing well over a million students 
every year, but I am one of those who believes that we don't 
lose them in high school.
    We lose them when they don't get early childhood 
development. We lose them in grades one through three, when the 
fire of learning isn't lit, and we have had some slight 
disagreement over how to proceed when it comes to high schools.
    All of us want our high schools to improve, but I do 
believe that our focus on the early grades, the Head Start 
reauthorization we moved through the House last year, and the 
fact that these early grade scores in the NAPE test are, in 
fact, showing significant results, will certainly help us as we 
begin to look at how to address the high school problem, and 
while I want more rigor, while I want more time on task, I 
don't want to get in the position where we have so overly 
burdened our schools so quickly that people just give up and 
walk away, and this is a real balancing act that I think that 
we are all going to have to continue to deal with in the coming 
years, and with that, let me yield to my friend and colleague, 
who I said a lot of nice things about earlier, but you weren't 
here, Mr. Miller.
    Mr. Miller. Darn. That is kind of rare. Thank you. Thank 
you, Mr. Chairman. I was fascinated listening to your comments. 
I was pleased to learn, I guess I should say, that the critics 
of No Child Left Behind are equal opportunity critics. We are 
hearing the same thing on both sides of the aisle.
    Thank you, Madam Secretary, for being here, and thank you 
for your support of this legislation. I agree with you.
    I think we are seeing improvements and benefits to our 
children, I think to their families, also, as their children 
start to succeed and achieve proficiency that make this all 
well worth it.
    You raised an awful lot of things in your--topics in your 
testimony.
    So if I could just touch on a couple, we are coming up 
against a deadline on highly qualified teachers, and I have had 
some discussions with the department, and I appreciate that. I 
think that we have got to handle that right.
    I don't know what that means, but I think we have got to do 
it right, because I think, clearly, the cornerstone of this 
legislation is that we will, at some point, sooner than later, 
have a highly qualified teacher in front of all of our 
children.
    The data suggests that if our children get that opportunity 
several years in a row, they perform and get the benefits of 
those skilled and talented people teaching them, and we have 
got to make sure that the states are doing everything they 
possibly can in improving that ability, both for veteran 
teachers and for new teachers.
    You mentioned the growth model. I have sent you a letter. I 
have some concerns.
    My state has proposed a growth model. My fear is that you 
grow to nowhere, you are always growing, but you never arrive, 
and I think it is important that we have a growth model where 
children do arrive at proficiency, and I appreciate--and we 
have all heard the concerns about teachers who really do quite 
remarkable jobs in terms of getting growth out of students who 
are behind and moving them along, and I can understand the 
desire to get credit, if you will, or have that factored in, 
and I appreciate that you have formed a group to look at that, 
but it has to be growth with a destination.
    If there is no destination--if I look at the California 
model, I think there is an opportunity to leave a huge number 
of children behind and out of sight. That is where we were 
before this legislation, and I do not want to return there.
    I am also--you mentioned--and I appreciate your working out 
with Chicago--I had an opportunity to go out and meet with them 
during the controversy on supplemental services, and I hope 
that does work. I think we want to expand this.
    This was a calculated decision by the conferees and by the 
committees to bring some entrepreneurs into this field to 
provide these services.
    I also think it is very important--we have got to decide 
that there has got to be a fiscal management in place here. 
There are a lot of people running around offering supplemental 
services.
    There is a considerable amount of money available on the 
street, and these are very precious dollars, and whether the 
state is going to be responsible or the district, somebody has 
got to be responsible to make sure that we are, in fact, 
purchasing those services that are most likely to help, and I 
know, you know, we are supposed to be based in some records of 
success, but I have a concern that we undermine supplemental 
services by not paying attention to the management, the fiscal 
management of those programs.
    I appreciate the flexibility you have provided with respect 
to disabled students and the concerns that was raised in school 
districts.
    I also want to echo a concern--I am worried that some 
districts are interpreting that as a flat-out exemption, and 
therefore, they really don't have an obligation to these 
children.
    That certainly cannot be the intent of those efforts to try 
to help those school districts and better focus the resources 
on those children with disabilities. So I hope that we would 
take a very close look at that effort.
    I would also say that with respect to the flexibility 
provided small schools, that I don't want to lose those schools 
being accountable for those children and their progress.
    I wasn't here in your comments, but my understanding is, if 
a special subgroup is created for the hurricane children who 
are dislocated, that they will be tested, that they will be 
part of that process.
    They are not going to be exempted from this process. School 
districts aren't going to be able to park these kids and not 
pay attention to them.
    They are going to be accountable, not necessarily in 
meeting--but they will be accountable to those children and to 
their families, as I understand what you have put forward here.
    Finally, let me just say I continue to be concerned, as I 
travel this country and meet with school officials and 
individual schools--I am concerned about the funding. I think 
it is being better documented on what schools need to do these 
things, to do them right, to make these reforms, to put the 
talent in place, and I think we really have got to decide to 
make the next tranche of investment in this program for these 
districts.
    I think a lot of these problems would be taken care of if 
they had additional resources. I am concerned that we are 
starting to see Title 1 schools whose actual funding is now 
being reduced both for recalculation and both just because of a 
lack of money. I am concerned that the funding for this year is 
not even keeping up with inflation. I know we have put a lot of 
new money in here, but I think we are starting to see pretty 
sound evidence that this is now an important decision for the 
administration and for Congress to make. And so, those are some 
comments in response to what you said.
    I think that we--the commitment to this legislation is 
growing.
    I think as people start to see the results, we start to see 
the results in what we would have said five years ago are the 
most difficult schools in some cities and rural areas, these 
children do have that opportunity.
    I don't know if we are going to have 100-percent proficient 
or not, but I have an awful lot of trouble with districts who 
have 15 and 16 percent proficient and are worried about 100 
percent.
    You know, just--why don't we try to get to 25 and 30 
percent and then come see me? Come see me when you are at 85 
and you have really got a problem, you know, and I don't make 
light of that.
    The fact of the matter is we are starting to see now models 
of acceleration that other schools better start paying 
attention to, because many of the excuses are evaporating all 
around the country with respect to these children.
    One final point, is I would hope that you would look at 
legislation that I have introduced on high schools, where we 
would match--the Federal Government would match the money put 
up by foundations and the governors for their proposals to try 
to expand that. I think they have put in place a good set of 
standards.
    They would build some models, expand some of the models 
that are working, and then perhaps we could come in and start 
to take a look at that over the next couple of years, so that 
we don't just sit down on top of them a model from here that 
may not work, and I think that by creating this sort of public-
private partnership with the philanthropic community, insisting 
on the quality, so when they invest their money, and the 
governors who now, I think, have created a lot of energy among 
other governors who were very skeptical of this, perhaps there 
is a chance, with a modest investment, to really expand that 
proposal.
    There is a lot of support among the governors for that 
legislation and within the philanthropic community. They 
believe that with us being a partner, they would attract many 
more private dollars to that effort. So, I would hope that we 
could look at that as maybe a bridge to where we want to go, 
and make sure that the locals are full partners in this one 
this time. Thank you very much.
    Secretary Spellings. Thank you.
    Chairman Boehner. The Chair recognizes the gentleman from 
California, Mr. McKeon.
    Mr. McKeon. Thank you, Mr. Chairman.
    Madam Secretary, I join with my colleagues in welcoming you 
here, and thank you for being here.
    Just a couple of anecdotal comments.
    When I was a young man, I had a sales manager that taught 
me that the only constant in life is change, and human nature 
fights that change.
    Years ago, I had a friend who was a high school principal 
in the L.A. city school districts, and he said they had just 
completed a study, and they found that, from the time that 
somebody conceived an idea in the district, until it was fully 
implemented throughout the district, took 25 years.
    I don't know how many children they lose along the way 
waiting to catch up with things in that 25 years, but I think 
that human nature is one of the problems we have had with No 
Child Left Behind. I think human nature tells us, when somebody 
proposes change, the first thing you do is sit back and say are 
they really serious. Let's just wait and see. We will wait. You 
know, they are going to be gone in four years. We will see what 
happens.
    The next thing is, after they have decided that they are 
really serious about change, then they start saying, well, what 
are all the problems with the change. You know, why can't we 
make this change?
    Then, finally, I think it clicks in, you know, change 
probably wouldn't be all bad, maybe we should get with the 
change, and I think we have seen all these steps as we have 
gone through this process, and I think with your--I think the 
previous secretary had the job of making people understand that 
we were serious about change, and then I think you have been 
able to come in with the idea, well, yeah, now that everybody 
understands we are serious about change, we are not going to 
drop this, we are going to be somewhat flexible in how we 
achieve it, so that--as was stated, all legislation is not 
perfect, and we find when we write the legislation, that 
regulations get written, and then, finally, everybody starts 
conforming with those. We see, well, this is a problem, we can 
tweak this here; this is a problem, we can tweak this here; but 
we keep the overall goal in mind of no child left behind.
    I have a grandson who has a reading problem.
    Now, he has two older sisters that are very bright, that 
come from the other side of the family. We are not all that 
bright on our side, but my son-in-law is very bright, and his 
family is, and the two oldest daughters are doing very well in 
school. The next boy came along and had a lot of sickness his 
first couple of years, and he missed some things, but he kept 
getting promoted.
    His next sister coming along already reads better than he 
does, and you know, problems come from that, and then, he is 
starting the fourth grade this year and can't read, and so, 
they put him into some special programs, and we spend extra 
money on that, and now he is developing behavioral problems.
    This is all just within the family here. I can tell you 
this, because personally I understand, and I see some serious 
problems, and I think what the chairman said about high school 
dropouts start at a young age--I see the frustration in this 
young boy because he can't read. He sees his younger sister can 
read, and he starts thinking I am stupid, I can't learn.
    Why is he going to want to sit there all through junior 
high and high school and have this reinforced that he is dumb?
    We, fortunately, have found some intervention, and he is 
now getting some special help, and he is learning to read, and 
he will be all caught up to grade within the next few months 
because of some very good, caring, understanding teachers and 
people that have the ability to help, but I think there is 
millions of kids like this, and I think that is why we needed 
No Child Left Behind. I think that is why we needed some of the 
reforms in IDEA.
    That is my little anecdotes.
    Now, we have had, as you know, critics of No Child Left 
Behind.
    How would you respond--what is the department doing to 
ensure that the ongoing implementation runs smoothly and we 
keep the overall goals in mind of not letting any child--not 
leaving them behind?
    Secretary Spellings. Well, you know, in this common sense 
approach, clearly it is important that we, you know, focus on 
results.
    Obviously, process is important, no doubt about it, 
particularly as we reach trigger dates like Congressman Miller 
was flagging with the highly qualified teacher provisions, but 
I do think we need to keep our eye on the ball. Are people 
making progress and on course to reach proficiency in various 
subgroups by 2014?
    So I think it is a balancing act of staying true to the 
principles, as well as, you know, being reasonable about 
various legitimate issues that we can learn from. I mean 
obviously I agree with you. I think we have gone through the 
phases of No Child Left Behind. We are now into acceptance, if 
you will, and I see it around the country.
    I see people now think No Child Left Behind can be my 
friend, data-driven decision-making, where they know more 
precisely and more specifically who needs help.
    Your grandson--I mean without accountability and data and 
measurement, you know, he might have just been moved through.
    He might have been placed in special education, we see that 
a lot. And then, you know, sort of forgotten, off the books, 
and so on. And so, I think, we have turned the corner on the 
merit of data, nothing sells like success.
    With these new results that we have gotten on our report 
card, I think that has helped a lot, no doubt about it.
    Mr. McKeon. Thank you.
    Secretary Spellings. Thank you.
    Mr. Castle [presiding]. Thank you, Mr. McKeon.
    Mr. Kildee is recognized.
    Mr. Kildee. Thank you, Mr. Chairman.
    Madam Secretary, again, welcome before the committee.
    George Miller, when I first came here, we were talking 
about teacher quality and certainly made a convert out of me, a 
former teacher.
    Teachers right now--their qualifications can be determined 
by state certification, by having a B.A. degree or higher, or 
demonstrating knowledge in the subject field in which they 
teach, and among the alternative methods is a method called 
HOUSSE, High Objective Uniform State Standard of Evaluation. 
How is your department monitoring these alternative methods, 
particularly HOUSSE, in the various states?
    Secretary Spellings. Thank you for that question.
    First, I want to say, on HQT, we have made progress in 
states, no doubt about it.
    Nearly every state--I think all but two or three--have the 
competency testing that is required as part of No Child Left 
Behind to determine subject mastery, and that is in place.
    The HOUSSE process was a way to accommodate, deal with, 
understand, review current--the current teaching force, and 
nearly every state has that provision in place. How are we 
going to deal with people who were teaching in a rural area 
physics, chemistry, and biology, and yet only certified in 
chemistry, for example, I mean all the kind of realities of 
that.
    As we head into this compliance state of 2005-6, end of the 
school year, this will give us an opportunity to review the 
quality of those plans, the good actors, if you will, versus 
the not so good. One of the things I am really going to look at 
is, one of the dirty little secrets in education. As we all 
know, is that some of our finest, most experienced, most 
effective educators, work their way to the least challenging 
educational environments, and conversely, some of our least 
experienced teachers are in our most challenging environments. 
I think we need to shine a light on that. I think we need to 
make sure that highly qualified teachers are first in our most 
challenging places.
    It is going to be difficult for us to reach these 
proficiency standards without, the best personnel in those 
environments.
    So this is a great time for us to review the HOUSSE 
process, as well as the actions that states have taken to 
comply with this trigger.
    Mr. Kildee. You put your finger correctly on the problem.
    In the hearings we have had throughout the country, you had 
asked how many of your teachers are not qualified, either by 
certification or for other reasons, and they would give a 
number. I would ask where are they concentrated? Usually it was 
the poorest school districts in the state. That is really sad, 
and I know, myself, personally, that very often, under the 
pressure of finances, that a superintendent or a principal will 
assign a teacher to a class for which that teacher, you know, 
is really not trained. It is not the teacher's fault, they are 
assigned there, and the principal becomes--has become--we are 
improving on that. No Child Left Behind is helping us improve 
on that, but very often it was stay three paces ahead of the 
kids and catch me if you can, right?
    They were not really qualified, and I think that, while we 
want to be concerned about teachers who felt they were being 
threatened in areas where they really were qualified. Because 
they technically did not reach the standards, we also want to 
be concerned about the needs of those students. I think, so 
far, watching you, you have provided a good balance. But I 
think we should continue to monitor, especially, the HOUSSE 
provisions.
    Secretary Spellings. No doubt about it.
    Mr. Kildee. Thank you very much, Madam Secretary.
    Mr. Castle. Thank you, Mr. Kildee.
    I will yield to myself. I am next in line, by the way, just 
for the record.
    I know we aren't supposed to talk about the admonishment of 
the chairman not to talk about Katrina. But just one thing I 
did want to mention is that I have heard and I have heard 
others talk about the numbers down there. The number of school 
districts, the number of schools, the number of kids, and 
obviously, there are very different circumstances there. Some 
of these schools, I am sure, have reopened. Some of those 
school districts are probably functioning. Some of them, in 
some cases, a hundred percent of the kids may be going to 
school now, as happens after a number of storms. But in other 
circumstances New Orleans stands out, but others, as well--they 
just simply aren't there. The schools may not be there, and the 
kids aren't there, or whatever.
    I would hope that we can--I would hope that your department 
is--and I am sure you are--is keeping a pretty careful eye on 
those numbers and making the adjustments as we have to.
    We have to make financial decisions here.
    We need to make sure these kids are educated or whatever, 
and I hope that is a moving target number in what we are doing.
    Secretary Spellings. It very much is.
    Mr. Castle. With respect to No Child Left Behind, I mean I 
thought all the questioning was interesting, and I have some of 
the same questions.
    I did not ask the staff this. I think our reauthorization 
of this is probably going to be in 2007, based on what I know, 
so probably two years away, a year-and-a-half away at this 
point, and I am interested in what you might be interested in 
doing.
    For example, with the high school--the addition of the high 
school this year--I didn't think that the effort by the 
administration--not you but by the administration as a whole--
was particularly strong in terms of really getting that done.
    I thought their proposal, which was taking vocational ed 
money and TRIO money, etcetera, and doing it was not something 
that even they thought would necessarily hold water. Having 
said that, I believe that you, particularly, in the 
administration now, is quite interested in having high schools 
bought into No Child Left Behind. I am and I believe very 
strongly you have to do that to complete the record.
    We also talk about flexibility, and you and your 
predecessor have both been pretty good about changing 
flexibility, particularly the learning disabled, and there may 
be areas in there which we do need additional flexibility, and 
you mentioned here today the growth model, which is, I suppose, 
hard to encapsulate, either in legislation or regulation, by I 
think it is something we should be looking at, but I am 
interested in those areas and how you rank them in terms of 
importance or how soon we should get them done as part of No 
Child Left Behind or anything else you would have in mind that 
we should be looking at as we holistically approach No Child 
Left Behind, you know, probably starting next year, we will 
start to look at it.
    Secretary Spellings. Thank you for that question.
    Let me start with the growth model. I do think that is 
something where we have to be very sophisticated. I am looking 
at some core principles about what are the must-do's on a 
growth model, must reach the 2014 target, must have an adequate 
data management and data mining system, annual assessment.
    I mean this is--these are--this sort of notion is for 
experienced actors, not for people who have yet to fully 
implement annual assessment.
    It is going to be hard to clearly establish growth where 
there are no regular benchmarks.
    So I will hope to bring that sort of information forward to 
you all in the very near term. With respect to high schools, I 
do think there is wide agreement.
    Congressman Miller talked about the governors. I have been 
with lots of them around the country. It is very much a 
bipartisan effort. I think they know that the people, the 
states with the most effective and competitive workforces are 
going to have the jobs. So, I do think it is right for us to 
turn our attention there.
    Maybe the strategy that the administration offered was not 
necessarily the exactly right one, but certainly it is 
something that we all agree we need to work on.
    I will just say one--quickly about high school. We have a 
dearth of information about what the problem is, for whom, what 
is the cure, and so on.
    We have offered striving readers, the need to continue to 
work reading proficiency.
    We think students drop out because they lack reading 
skills.
    We think there is disengagement because people are--you 
know--and the need for dual enrollment programs, but we are 
doing a lot of guessing about what is wrong in high school and 
what the right policy levers to work with are, and we need some 
data.
    Mr. Castle. Governor Warner--I saw him at a seminar thing 
we did together the other day--from Virginia, said that the--I 
thought he said that the governors have actually reached a 
definition of high school graduation that could be used 
universally. That has been, to me, a tremendously troubling 
point in education for many, many decades, not just years.
    Is that correct? Are we getting to some sort of universal 
definition of what--who is really graduating and who is not in 
this country?
    Secretary Spellings. Yes, sir, and we at the department 
have been a part of that. We are now reporting a new indicator 
that essentially is who do you have at the ninth grade that 
shows up at the finish line, not who started their senior year 
or other various, you know, permutations on what might 
constitute a complete-er rate, who is in the pool and so forth. 
So, I think we are making progress. We have just seen the 
release of--or a description of the before and after picture on 
the indicator. I think a truth in advertising is a big part of 
getting at attacking this dropout problem, because it has been 
hard to get a handle on.
    Mr. Castle. I just can't stress how important I think that 
is.
    It is amazing to me that that has not happened in the past, 
and it is amazing to me that states come up with these vastly 
different statistics, because they are looking at it 
differently in terms of how they approach the statistics, and I 
think that is really important.
    Secretary Spellings. That is right.
    Mr. Castle. Well, my time has expired.
    As far as the reauthorization is concerned, and 
particularly high schools, I don't think we should necessarily 
wait until we start the actual formal process of looking at 
reauthorization.
    We need to be looking at these things now and getting them 
ready. Hopefully we can all work together on that.
    Secretary Spellings. Absolutely.
    Mr. Castle. Congresswoman Davis is next. Susan Davis is 
next.
    Mrs. Davis of California. Thank you.
    Thank you, Mr. Chairman and Madam Secretary. It is very 
good to have you with us.
    Along the lines of how we respond and work with high school 
students, I wanted to mention briefly a particular program that 
has had such great success, and I am wondering what the 
department is doing to try and promote that and to work with 
school districts. It's the AVID program, Advancement Via 
Individual Determination, and why that--just give a statistic 
or two, but I mean these are low-income students, largely, 
largely minority students, who select an elective course to 
teach study skills, which we know is so critical, study skills, 
reading, and writing for critical thinking and collaborative 
learning, and over 250,000 students have completed those 
courses across the country in about 36 states, 95 percent of 
them go on to college, 85 percent of them are still there in 
their sophomore year.
    So it seems to me, we have a proven program of success. It 
is successful partly because it doesn't depend on one dynamic 
teacher, what they have done and put in place. It is working 
with colleges and universities, with students, and follow-up. I 
think learning and, really, oversight of the program is the 
success.
    What is the department doing to promote those kind of 
programs? How can we work with you to do more of that?
    There are, I know, programs throughout the country, but 
this one, in particular, if we are talking about high schools, 
we are talking about lighting those fires--these are kids 
whose, you know, fires probably went out, but we do start 
catching them in some schools even at middle school level.
    Can you share more about how can we work with you, with 
that kind of program and others?
    Secretary Spellings. Yes.
    We are, at the Department of Education, a funder of AVID 
programs around the country, as part of our advanced placement 
and pre-AP--you know, that pipeline sort of issue, and so, we 
recognize that it certainly has some merit, no doubt about it, 
and I think No Child Left Behind clearly has built an appetite 
for, you know, things that work, no doubt about it.
    One of the things that I think the AVID program does well 
and clearly is, is to get to this notion of individualization. 
I mean that's what the ``I'' is in AVID, as you said, and a 
notion that it is about competency-based for the individual, as 
opposed to amount of seat time and so forth.
    So it does--this accelerated instruction, this work the 
problem till you get there sort of philosophy that undergirds 
that, that is important, and I think there is a--beginning to 
see more of that around the country, and so, we are pleased to 
be a partner with AVID programs around the country.
    Mrs. Davis of California. Thank you.
    Do you think that those efforts would accelerate, because 
this really is closing the achievement gap. What more can be 
done?
    Secretary Spellings. That is the sort of thing that we have 
built an appetite, a hunger in the school community to try 
things that do have demonstrated results.
    Mrs. Davis of California. All right. Thank you.
    I have a number of other questions, Mr. Chairman, but I 
know that the Secretary is going to have to leave, and I will 
allow others to take on.
    Thank you.
    Chairman Boehner [presiding]. I appreciate my colleague 
from California's generosity, and hopefully other members will 
follow suit.
    The Chair recognizes the gentleman from Michigan, Mr. 
Ehlers.
    Mr. Ehlers. Did you have to look at me that way when you 
said that?
    Thank you, Mr. Chairman, and thank you, Madam Secretary, 
for being here.
    I would like to address a couple of questions, looking 
forward toward reauthorization, and these may be too complex to 
deal with here, but I would certainly appreciate your thinking, 
and perhaps a more detailed response later.
    Not too surprisingly, my questions are about math/science 
education, not because I am a one-dimensional person, but 
because Mr. Holt and I are the ones who seem to have been 
delegated the responsibility to pursue this.
    Two basic issues.
    As you are aware, I am a strong supporter of your 
department's program on math and science partnership, also the 
National Science Foundation program, math/science partnership, 
was involved in developing both. They are complementary, 
spelled with an ``e'', and really belong together, but they 
have not been adequately funded, for a series of reasons over 
the years, and the first question relates to how--what you 
think, and I will ask both questions so you can answer them 
together.
    How can we address that in reauthorization? We, in fact, 
are spending less on those programs now that we did before No 
Child Left Behind was passed. We had the Eisenhower program 
before that, and considerably more was being spent on those 
areas than there are now, and so, the first question is how can 
we adjust that? What ideas do you have to adjust that in 
reauthorization so that these programs, which--as you say, 80 
percent of the jobs are going to require the training.
    How can we assure that they get greater emphasis in teacher 
training programs and professional development and so forth?
    The second issue is more complex, and that arises--I am 
sure you are familiar with the PISA test comparing us to other 
nations, the TIMS test comparing us to other nations. We do 
quite well in fourth grade math and science, we do less well in 
eighth grade, we do very poorly in 12th grade, and when you 
look at all the other nations that do well, they have a sense 
of uniformity to their programs, they are national programs, 
and there is a factor there that is often overlooked, and that 
is math and science are sequential, and students must learn 
them sequentially, and if they get out of sequence, their 
learning is really hampered.
    The difficulty is we are a transient nation, and people 
constantly transfer from one school district to another, from 
one state to another, one city to another.
    With the plethora of programs in this nation, it is very 
hard for the students to actually get the material presented in 
a sequential way. That is not true in California, Texas, 
Florida, the major states which have a uniform curricula, but 
most states don't have that, and particularly when students, as 
we have with Katrina, traveling from one state to another, have 
a totally different program, totally different sequence.
    I know you and I both share the same philosophy, that it is 
not our job as the Federal Government to establish a uniform 
curriculum in this nation, but yet, the need is so pressing 
here.
    What can we do to--at the Federal level--to ensure that 
there is this uniformity of sequence, uniformity of program, so 
that a student taking fractions in the fourth grade 
transferring to another school will continue to study fractions 
and will not suddenly be jumped into another topic?
    I would appreciate any ideas you have on that that we can 
try to apply as we work toward the reauthorization of the bill 
and try to address this very difficult problem.
    Secretary Spellings. Thank you, Congressman, and thank you 
for all you have done to promote math and science education 
throughout your public service career. It has really been 
tremendous, and we need you desperately now. I say sometimes 
that we need to do for math what we have done for reading, 
which is have an understanding of how we provide human beings 
the opportunity to become proficient readers. And I think the 
education community has spent a lot of time talking about or we 
all have spent a lot of time talking about the tactics of 
calculation, proficiency, and skills versus the ability to 
think and so on and so forth. I think that is being set aside 
because these curriculum issues are acute. As you said, some of 
the sequencing issues, levels of rigor, and a better 
understanding of mathematics education in our country. I think 
it is, I am pleased that the community is coming together and 
at least agreeing that we have a problem. I see around the 
country and you have mentioned it, sort of, the 
disconnectedness, and issues are manifesting themselves as we 
look at displaced student issues from state to state and the 
gaps in curriculum.
    You are right, the Federal Government is not authorized, in 
fact, we are expressly prohibited from getting in the 
curriculum business, but I do think there is a role for us to 
help describe research. We have, as I keep saying over and 
over, built an appetite for results. We know, assuming our 
grade level proficiency standards are accurate. Which, you 
know, obviously varies by state. I think there is a recognition 
that we have a problem, and I have convened a math task force 
of mathematicians and educators to work through some of these 
issues. I think that is obviously the first step.
    With respect to funding and resources, I agree. You know, 
we, as you know, have asked for additional funding for the 
math-science partnership, it is up 51 percent.
    I think one of the things that we still lack is 
understanding what are the most effective programs. We need to 
drill down more effectively in math. We are paying for a lot of 
interesting ideas, and I think we still have yet to kind of 
crack the code on what the most effective ways to enhance and 
accelerate math instruction and math learning really are.
    Mr. Ehlers. Thank you. I will be happy to continue to work 
with you on that.
    Chairman Boehner. The Chair recognizes the gentleman from 
New Jersey, Mr. Holt.
    Mr. Holt. Thank you, Mr. Chairman, and thank you for 
coming, Madam Secretary.
    Let me follow on that discussion of science education. It 
is true that the math-science partnerships are up maybe 50 
percent, which brings them to about a third of what the funding 
was for the Eisenhower programs before No Child Left Behind 
began.
    So it is far, far behind where we were before in teacher 
professional development for science teachers, for teachers of 
science, not just science teachers.
    So I hope we will see a much greater commitment in light of 
the need that you just outlined, because at the same time, the 
NSF counterpart of this teacher preparation and teacher 
professional development has come in with a request every year 
for a decrease. So it is--I think it is--this is a very serious 
problem that is going to require strong leadership from you if 
we are going to address the problems that you just outlined.
    On the subject of science, as you know, in this school 
year, No Child Left Behind testing and assessment will begin in 
science. There is a great deal of uncertainty out there in the 
community, ambiguity, they say, in the language, about whether 
these tests will be included in the AYP calculations. Can you 
give us some clarification on that?
    Secretary Spellings. Let me----
    Mr. Holt. I should say, you know, Representative Ehlers and 
I, who were coauthors of this language, certainly intended that 
it would be, and I think the Congress intended that it would be 
when we put that language in No Child Left Behind.
    Secretary Spellings. Let me first respond to the math-
science partnership funding issue, and I think, obviously, 
these issues of resources are always things that are negotiated 
and discussed between the administration and you all. One of 
the key concepts behind No Child Left Behind was, of course, to 
try to provide a focus on results and yet more latitude with 
respect to resources, and many of the dollars that are focused 
on teacher development flow through Title 2 and are allocated 
to states and local districts to meet the needs as they see 
fit. We are measuring annually in mathematics and so forth, and 
so, rather than be specific about----
    Mr. Holt. If I may jump in, so, for example, funds that 
used to be restricted for teacher professional development in 
science, for example, can now be used for smaller class sizes.
    Now, smaller class sizes is certainly a desirable goal, but 
it clearly is taking it from such things as teacher 
professional development for those who teach science.
    Secretary Spellings. Well, you know, the whole--the 
philosophy was just sort of the results of a process sort of 
notion and to allocate whether--you know, that local school 
districts and states would decide, you know, do we need teacher 
development----
    Mr. Holt. We could turn it over to states, but we need 
leadership from Washington that there will be a commitment to 
teaching of science in this country, and I am not seeing it, 
and I hope you will provide it, in light of what you just said 
about the need.
    Secretary Spellings. Clearly, it is a place for leadership, 
no doubt about it.
    With respect to science standards, they are being--science 
assessments are being developed now.
    As I understand it--and certainly this is the--you know, 
what will be at issue in the reauthorization is that the 
understanding was that the accountability provisions, per se, 
applied to reading and math and not the science, that we are 
now developing standards, developing those measurements, in 
many cases benchmarking them for the first time, but you know, 
with respect to accountability, we are not there yet.
    Mr. Holt. So the tests are for no purpose?
    Secretary Spellings. Well, I think what my experience is, 
is that shining the light on the problem, on the issue, 
particularly in a disaggregated way, is a great motivator for 
all of us, for governors, and for school board members.
    Mr. Holt. Does that argument also apply to reading and 
math?
    Secretary Spellings. Well, obviously----
    Mr. Holt. Is the testing alone enough?
    Secretary Spellings. I think what, it is not enough?
    Mr. Holt. But it is enough for science.
    Secretary Spellings. What we knew was, when we created No 
Child Left Behind, that we were trying a new way of doing 
business, that we were going to hold states accountable, very 
much for these two key things that we had never done before. 
And that as we work our way into various other subject areas, 
we will look at, obviously, the reauthorization chart is before 
this body in the fairly near future, whether that and other 
subjects ought to be part of the accountability system.
    I will tell you from my own experience in Texas, we did. We 
added additional subject areas and made schools and school 
districts accountable for those subjects, as well.
    Mr. Holt. Okay.
    Since my time is expired, I will ask in writing if you will 
also comment on whether the teaching of intelligent design as 
an alternative to science is department policy.
    Secretary Spellings. The Department of Education does not 
have a curriculum policy on intelligent design or science 
standards, generally.
    Those are reserved to states and local communities, and we 
are expressly prohibited from the Department of Education from 
curriculum decisions.
    Chairman Boehner. The Chair recognizes the gentleman from 
Minnesota, Mr. Kline.
    Mr. Kline. Thank you, Mr. Chairman. Thank you, Madam 
Secretary, for being here. I see we are rapidly approaching the 
deadline here on the clock.
    I would like to follow the example of the--staying in the 
green light, but I want to take just a minute to kind of sort 
of set the stage before I ask the question.
    Despite the near perfection of the Chairman's bill, as we 
all know, it wasn't greeted universally with great accolades 
and open arms, and in fact, when I was first elected, many 
parents and educators had quite a bit of criticism of the bill, 
and one of them was that it was too rigid, there wasn't enough 
flexibility.
    Your predecessor, acting within the law, granted some 
flexibility in several areas, including highly qualified 
teachers in special ed, and so forth, and as I have continued 
to visit with educators in the district, there is less 
complaint about the law being too rigid. Nevertheless, there is 
still some there.
    There are complaints that, with the influx of refugees and 
immigrants, for example, that is causing some problems in some 
of the disaggregated groups, and my position has consistently 
been that we should try to implement this law has hard as we 
can, do the very best we can, and where it simply will not 
work, there just needs to be more flexibility, either you in 
the department or we in this body will look at changes when we 
go to reauthorization.
    So my question is, from your perspective, looking across 
the country, where are you seeing places where you are hearing 
or you suspect that it may be, in fact, too hard, where we have 
got bumps that we are going to have to change, either through 
your own actions or here in this body as we go into 
reauthorization?
    Secretary Spellings. Well, I think we are learning that all 
the time, as we get more assessment data and continue to track 
progress.
    What I hear as major issues around the country that are 
vexing for school folks, is special education. Which we have 
discussed with respect to understanding fully the range of 
abilities. Who should and shouldn't be in the accountability 
system, what the appropriate educational prescription is, if 
you will, a much more sophisticated understanding of special ed 
students, and what role reading plays in the ability to have 
students get on grade level and in regular environments, as 
opposed to special education designation and the like.
    LEP is an area that I hear a lot about. I think we need 
more research in that area. We have not cracked the code.
    Obviously, this is a place where we will have more and more 
challenges as non-native speakers continue to come into our 
country, and large urban districts have, you know, dozens of 
languages now taught--or spoken in their school environment.
    So I think we need to be much smarter about how we do that. 
Then the third issue I hear about is, the notion of progress. 
This as you know, is it a realistic goal for 2014, for whom, 
and so forth. I hear that kind of chatter.
    I mean I think those are the things that are most acute as 
far as educators are concerned.
    Ms. McCollum. Would my colleague from Minnesota yield for a 
follow-up?
    Mr. Kline. In one second, I will, I would be delighted to. 
Let me just say that is very consistent with what I am hearing 
and add that the multiple language issue applies not only to 
large urban areas, but I can tell you from my own experience 
that in suburban schools it is the same.
    I am happy to yield.
    Ms. McCollum. I am also from Minnesota, Madam Secretary, 
and Minnesota, because we had already started our own format of 
Leave No Child Behind years early, we had the testing and 
everything in place, so we just tweaked it. We came on-board 
quick, and so, we are in year three, where other states are not 
in year three. So we have been penalized for the earlier years, 
where all these adjustments and modifications have been put in.
    What are your plans in the department not to hold Minnesota 
in a penalty phase for participating earlier and starting in 
the testing process that now has us in year three without the 
benefit of all the waivers that other schools have had as they 
have come on-board?
    Secretary Spellings. There are issues about early adapters.
    I also come from a state that was an early adapter. I do 
think early adapters is part of the reality that we are in. I 
would suggest that many of those states who are the earlier 
adapters are starting to see accelerated improvement for 
subgroups. In particular the states have the results to show 
for investing early in some of these core principles.
    You know, as we look at state accountability plans, I mean 
these are very much, you know, hip-bone, leg-bone kind of 
situations with the kind of student population, the sort of 
assessments, the types of standards and so forth. So it is a 
very comprehensive approach and unique approach that we really 
take with each state as we work with them, just as you would 
have to do.
    It is highly tailored to local policies and state policies 
that have been made.
    Ms. McCollum. Mr. Chair, I would like to submit for the 
record our state auditor's report, which shows, because of the 
way that Minnesota came in and the way that the penalties 
accrue, almost every single Minnesota school, within the next 
10 years, will be failing, no matter what we do.
    So I would like to submit that to the record and work with 
the Secretary and Mr. Kline on that.
    Chairman Boehner. I want to thank the Secretary for coming 
today. Other members have questions that they would like the 
secretary to answer.
    If the secretary doesn't mind, we will ask the members to 
submit those questions in writing to the Secretary, and we will 
work with the department to make sure that all of your 
questions get answered.
    Mr. Payne. Mr. Chairman, I just want to press a privilege. 
Will we have an opportunity to invite the Secretary back?
    I know that she has a busy schedule, but----
    Chairman Boehner. We will.
    Mr. Payne.--our first opportunity--and hour and 15 minutes 
is a little difficult to get through our crew.
    Chairman Boehner. We will work with the Secretary, and 
sometime this fall, before the session is over, try to have 
another session. Thank you, Madam Secretary.
    [Pause.]
    Chairman Boehner. If the committee will come to order, our 
second panel this morning is about to begin. I would like to 
introduce our two witnesses.
    Our first witness this morning on the second panel will be 
Dr. Deborah Jewell-Sherman, and she has served as the 
superintendent of Richmond Public Schools since 2002. She has 
also served as an educational leader in New York, New Jersey, 
and Fairfax County, Hampton, and Virginia Beach, Virginia.
    Dr. Jewell-Sherman was the recipient of the 2005 United 
Negro College Fund Flame Bearer on Education award, and Ms. 
Jewell-Sherman, we are glad that you are here.
    Then we will hear from Ms. Kati Haycock, who currently 
serves as director of The Education Trust, an independent 
nonprofit organization focused on ensuring high academic 
achievement for all students at all levels and closing the 
achievement gap that separates low-income and minority students 
from their peers.
    Prior to joining The Education Trust, Ms. Haycock served as 
executive vice president of the Children's Defense Fund and 
president of the Achievement Council, a statewide organization 
in California that provides assistance to teachers, principals 
in predominantly minority schools and improving student 
achievement who has worked with all the members of this 
committee, and we appreciate both of you for being here, and 
with that, Dr. Jewell-Sherman, you may begin.

   STATEMENT OF DR. DEBORAH JEWELL-SHERMAN, SUPERINTENDENT, 
                    RICHMOND PUBLIC SCHOOLS

    Ms. Jewell-Sherman. Good morning, Chairman Boehner, 
Congressman Miller, and members of the committee. I am Deborah 
Jewell-Sherman, superintendent in Richmond City, Richmond, 
Virginia, and I represent the board, our employees, and 25,000 
students.
    Thank you for the opportunity to testify on No Child Left 
Behind and its impact on closing the achievement gap in our 
schools.
    The goal of Richmond City Public Schools is to provide 
students with a world-class education. For that reason, student 
achievement is the focus for every initiative program and 
partnership undertaken by the board.
    Of the 25,000 students enrolled, 90 percent are African-
American, 7 percent are Caucasian, 2.6 percent are Hispanic, 
and over 17 percent are students with disabilities. 
Additionally, nearly 70 percent of our students qualify for 
free and/or reduced lunch. Of important note, a significant 
number of our students come from single-parent homes and reside 
in low-income housing.
    In short, Richmond Public Schools typifies urban school 
districts across the nation.
    In 1999, the State of Virginia implemented its Standards of 
Learning initiative, a high-stakes testing program that 
required every local school district to meet achievement 
benchmarks in core academic subject areas. To become fully 
accredited, 70 percent of a school's student population must 
pass the tests.
    In year one, only two of Richmond's schools earned full 
accreditation. In 2002, that number reached 10.
    In 2003, we more than doubled our number of fully 
accredited schools, moving from 10 to 23, or 45 percent.
    The next year, 23 accredited schools became 39, or 76 
percent, and this year, the preliminary data indicate that 43 
of our 51 schools, or 84 percent of our schools, will earn full 
accreditation.
    Richmond Public Schools has experienced the same progress 
in fulfilling the Federal NCLB benchmarks.
    Last year, 27, or 52 percent, of our schools made AYP.
    In 2004-05, with 97-percent highly-qualified teachers, 39, 
or 76 percent, made AYP, and 29 of those schools are Title 1 
schools.
    In 2001, the Federal Government's NCLB ushered in stronger 
accountability measures.
    In 2002, our Governor, Mark Warner, launched the state's 
PASS, or Partnership for Achieving Successful Schools, 
initiative, which focused on providing resources to low-
performing schools.
    Also in 2002, my first year as superintendent, the district 
asked the Council of Great City Schools to complete an analysis 
of our instructional program from top to bottom.
    While NCLB provided a spring board for our school district 
to take a bold look at our instructional program, it must also 
be noted that Richmond public schools did not shy away from the 
challenges that accompanied the implementation of the act.
    Instead, we assessed our division from top to bottom to 
determine our current status, and then we constructed a strong, 
more accountable system where our students received high-
quality instruction that demanded higher levels of academic 
achievement.
    We developed a plan of action. The first instructional 
reform initiative launched was the adoption of a district-wide, 
research-based reading instructional program and the 
elimination of all supplementary programs that had not 
increased student achievement and were not data-driven.
    These measures were followed by the implementation of 
several standardized programs and processes.
    We engaged in a comprehensive curriculum alignment process, 
developed a student assessment and data management system, 
revised the curriculum guides, created lesson plans, 
implemented a district-wide instructional model, devised an 
intense accountability system, developed a continuous capacity-
building staff development program, and utilized data analysis 
to provide immediate intervention and remediation to staff and 
students.
    In Richmond Public Schools, the progress of students has 
increased and is mirrored in all our subgroup populations. Five 
out of six subgroups showed increased performance during the 
2004-2005 school year in both English and math. There was a 
slight decline of less than 1 percent by our white students in 
mathematics. An analysis of the data indicates the gap between 
white students and black and Hispanic students is closing.
    In English assessments, the gap between black and white 
students was reduced by over 2 percent, between Hispanic and 
white students by over 11 percent. The data also indicate a 
slight increase in the gap between black and Hispanic students.
    In mathematics, the gap between black and white students 
was reduced by 2 1/2 percent, between Hispanic and white 
students by 4 percent.
    The data indicate the gap between Hispanic students and 
black students has decreased by over 4 percent.
    In Richmond City Public Schools, in the incorporation of No 
Child Left Behind with state and local reforms focused our 
attention on providing the greatest instructional resources to 
those students who had the greatest need. School improvement 
dollars were used for professional development and training of 
teachers and staff, as well as to provide resources such as 
educational consultants, tutors, coaches, and instructional 
materials.
    These funds have been a tremendous support for our schools. 
As our schools continue to improve, they exit school 
improvement.
    This year, six schools were removed from the school 
improvement list. This is great news. However, little or no 
additional funds are available to support the very initiatives 
that helped to increase student achievement. The battle to 
increase student achievement does not diminish.
    The challenge of providing additional dollars with limited 
state and local resources is one that we must address.
    An additional challenge for us is implementing school 
choice as a function of NCLB.
    Currently, school choice is offered prior to supplemental 
educational services, but many parents prefer the tutoring and 
academic coaching that is provided by SES over school choice. 
Last year, we only had 359 applicants for school choice, in 
comparison with 1,380 students that received SES.
    Currently, a pilot program that offers SES before school 
choice is underway in four Virginia school divisions, and we 
anxiously await the results.
    In conclusion, in Richmond City Public Schools, we embrace 
the No Child Left Behind Act as a means for refined and 
deepened academic focus for all students.
    Our district is committed to high expectations for all, and 
we have implemented a new accountability system, the balanced 
score card, which is an approach to strategic management that 
ensures clarity of vision, strategy, and action. This 
initiative is used to ensure the accountability of our school 
board, central office administrators, school administrators, 
and classroom staff.
    The Richmond Public School family is committed to improving 
individual student achievement as indicated by national, state, 
and local standards, leading to each student's graduation and 
ability to pursue future educational opportunities and 
meaningful careers.
    There are many good school systems across this nation. 
However, Richmond Public Schools is not satisfied with just 
being good. We seek with firm resolve to move from good to 
great. Thank you.
    [The prepared statement of Dr. Deborah Jewell-Sherman 
follows:]

  Prepared Statement of Deborah Jewell-Sherman, Ed.D, Superintendent, 
                        Richmond Public Schools

    Good morning, Chairman Boehner, Congressman Miller, Congressman 
Scott and members of the Committee. I am Deborah Jewell-Sherman, 
superintendent of Richmond City Public Schools in Richmond, Virginia. I 
represent the School Board and 25,000 students. Thank you for the 
opportunity to testify on No Child Left Behind and its impact on 
closing the achievement gap in our schools.
    The goal of Richmond City Public Schools is to provide students 
with a world-class education. For that reason, student achievement is 
the focus for every initiative, program and partnership undertaken by 
the Richmond City School Board.
    Of the 25,000 students enrolled, 90 percent are African American, 7 
percent are Caucasian, 2.6 percent are Hispanic and over 17 percent are 
students with disabilities. Additionally, nearly 70 percent of our 
students qualify for free and/or reduced lunch. Of important note, a 
significant number of our students come from single-parent homes and 
reside in low-income housing. In short, Richmond Public Schools 
typifies urban school districts across this nation.
    In 1999, the state of Virginia implemented its Standards of 
Learning initiative, a high-stakes testing program that required every 
local school district to meet achievement benchmarks in core academic 
subject areas. To become fully accredited, 70 percent of a school's 
student population must pass the tests. In year one, only two of 
Richmond's schools earned full accreditation. In 2002, that number 
reached ten. In 2003, we more than doubled our number of fully 
accredited schools, moving from 10 to 23 or 45 percent. The next year, 
23 accredited schools became 39 or 76 percent. And this year, the 
preliminary data indicate 43 of our 51, or 84 percent, of our schools 
will earn full accreditation. Richmond Public Schools has experienced 
the same progress in fulfilling the Federal NCLB Benchmarks, last year 
27 or 52 percent of our schools made Adequate Yearly Progress. In 2004-
2005, with 97% highly qualified instructors, 39 or 76 percent made 
Adequate Yearly Progress (AYP); 29 of which are Title I schools.
    In 2001, the federal government's No Child Left Behind Act ushered 
in stronger accountability measures. In 2002, Virginia Governor Mark 
Warner launched the state's PASS (Partnership for Achieving Successful 
Schools), initiative which focused on providing resources to low-
performing schools. Also, in 2002, my first year as superintendent, the 
district asked the Council of Great City Schools to complete an 
analysis of our instructional program from top to bottom.
    While the No Child Left Behind (NCLB) Act provided a springboard 
for our school district to take a bold look at our instructional 
program, it must also be noted that Richmond Public Schools did not shy 
away from the challenges that accompanied the implementation of the 
NCLB Act. Instead, we assessed our division from top to bottom to 
determine our current status, and then we constructed a strong, more 
accountable system where our students received high quality instruction 
that demanded higher levels of academic achievement. We developed a 
plan of action.
    The first instructional reform initiative launched was the adoption 
of a district-wide, research-based, reading instructional program and 
elimination of all supplementary programs that had not increased 
student achievement and were not data driven. These measures were 
followed by the implementation of several standardized programs and 
processes. We engaged in a comprehensive curriculum alignment process, 
developed a student assessment and data management system, revised the 
curriculum guides, created lesson plans, implemented a district-wide 
instructional model, devised an intense accountability system, 
developed a continuous capacity building staff development program, and 
utilized data analysis to provide immediate intervention and 
remediation to staff and students.
    In Richmond City Public Schools, the progress of students, overall, 
has increased and is mirrored in our subgroup populations. Five out of 
six subgroups showed increased performance during the 2004-2005 school 
year in both English and Mathematics. There was a slight decline, -.69% 
decrease by white students in mathematics. An analysis of the data 
indicates the gap between white students and blacks and Hispanics is 
closing.
    In English assessments, the gap between black and white students 
was reduced by over 2%, between Hispanics and whites by over 11%. The 
data also indicate a slight 1.8% increase in the gap between black and 
Hispanic students.
    In mathematics, the gap between black and white students was 
reduced by 2.5%, between Hispanics and whites by 4%. The data indicate 
the gap between Hispanic students and black students has decreased by 
over 4%.

                                ANNUAL MEASURABLE OBJECTIVES--ENGLISH PERFORMANCE
----------------------------------------------------------------------------------------------------------------
                    Student subgroups                       03-04 Achievement    03-04 Achievement     Variance
----------------------------------------------------------------------------------------------------------------
All......................................................               71.36                75.19         +3.83
Black....................................................               69.98                73.91         +3.93
Hispanic.................................................               66.00                79.73        +13.73
White Students...........................................               89.73                91.55         +1.80
Ltd. Eng. Proficient.....................................               65.38                77.24        +11.86
Disadvantaged............................................               67.18                73.26         +6.08
Disabilities.............................................               53.97                60.86         +6.89
----------------------------------------------------------------------------------------------------------------


                              ANNUAL MEASURABLE OBJECTIVES--MATHEMATICS PERFORMANCE
----------------------------------------------------------------------------------------------------------------
                    Student subgroups                       03-04 Achievement    03-04 Achievement     Variance
----------------------------------------------------------------------------------------------------------------
All......................................................               75.74                77.33         +1.59
Black....................................................               74.29                76.15         +1.86
Hispanic.................................................               80.45                83.79         +3.34
White....................................................               90.60                89.91          -.69
Ltd. Eng. Proficient.....................................               74.79                81.59         +6.80
Disadvantaged............................................               74.09                77.40         +3.31
Disabilities.............................................               54.56                67.96        +13.40
----------------------------------------------------------------------------------------------------------------

    In Richmond City Public Schools, the incorporation of NCLB with 
state and local reforms focused our attentions on providing the 
greatest instructional resources to those students who had the greatest 
need. School improvement dollars were used for professional development 
and training of teachers and staff, as well as to provide resources 
such as educational consultants, tutors, coaches and instructional 
materials. These funds have been a tremendous support for our schools. 
As our schools continue to improve, they exit School Improvement. This 
year six schools were removed from the School Improvement list. This is 
great news, however, little or no additional funds are available to 
support the very initiatives that helped to increase student 
achievement. The battle to increase student achievement does not 
diminish. The challenge of providing additional dollars with limited 
state and local resources is one that we must address.
    An additional challenge for us is implementing school choice as a 
function of No Child Left Behind. Currently school choice is offered 
prior to supplemental educational services (SES). Many parents prefer 
the tutoring and academic coaching that is provided by SES over school 
choice. Last year, we only had 359 applicants for school choice, in 
comparison with 1380 students that received SES. Currently, a pilot 
program that offers SES before school choice is underway in four 
Virginia school divisions. Richmond City is anxious awaiting the 
results of the pilot program.
    In conclusion, in Richmond City Public Schools, we embrace the No 
Child Left Behind Act as a means for refined and deepened academic 
focus for all students. Our district is committed to high expectations 
for all and has implemented a new accountability system, the Balanced 
Scorecard, which is an approach to strategic management that ensures 
clarity of vision, strategy and action. This initiative is used to 
ensure the accountability of our school board, central office 
administrators, school administrators and classroom staff.
    The Richmond Public Schools family is committed to improving 
individual student achievement as indicated by national, state and 
local standards, leading to each student's graduation and ability to 
pursue future educational opportunities and meaningful careers. There 
are many ``good'' school systems across this nation; however, Richmond 
Public Schools is not satisfied with ``just being good.'' We seek, with 
firm resolve, to move from good to great.
                                 ______
                                 
    Chairman Boehner. Thank you.
    Ms. Haycock.

  STATEMENT OF MS. KATI HAYCOCK, DIRECTOR, THE EDUCATION TRUST

    Ms. Haycock. Mr. Chairman, Congressman Miller, and other 
members of the committee, thanks for the opportunity to testify 
here this morning.
    As director of The Education Trust, I have the incredible 
privilege of visiting with educators all around the country who 
are working hard to improve the achievement of the kids that 
they serve.
    In fact, in the last 10 days alone, I have been in 
Charlotte, Cincinnati, New York City, Indianapolis, and 
Bismarck, North Dakota.
    As you might guess, everywhere I go, I hear folks talking 
about NCLB, and of course, it is not all positive. Nobody out 
there thinks the law is perfect. Almost everybody thinks there 
are some things about the law that could be improved, but what 
I want to be clear about is there is no question in my mind, as 
I visit school systems around the country, that educators are 
far more focused than ever before. In every community, there 
are educators who tell me that this law has strengthened their 
hand as they try to do the important work of improving 
achievement, especially among low-income children and children 
of color.
    I am very much aware that that is not always the message 
you hear from local educators in their districts, and many 
times you hear a lot of anger. It is important to remember, 
though, that in many ways, anger was essentially inevitable. 
With any kind of bold assault like this on the status quo, you 
have asked folks to confront the longstanding issues of race 
and class in our country, and that is never a comfortable thing 
for people to do.
    So when you add that expectation, that large expectation, 
with less than stellar, shall we say, communication and 
administration by the U.S. Department of Education, it is not 
surprising, in many ways, that there has been so much push-
back.
    Despite that, there is no question in my mind that this law 
is helping focus much more attention and much more energy on 
improving the education of low-income and minority students 
than at any time, certainly, more than 20 years that I have 
been doing this work. But you know us, we are the data guys. We 
are not ever as impressed by energy as we are by results, and 
the good news here is that, in the vast majority of our states, 
what we are now seeing is improved achievement for all kids and 
significant narrowing of the gap.
    In Minnesota, for example, the percent of black kids at the 
fifth grade level who are proficient in mathematics has 
actually doubled in the last five years, and the black-white 
achievement gap in Minnesota, once one of the largest in the 
country, has declined by 10 points, most of that progress since 
the law passed.
    In Illinois, achievement, especially in mathematics, among 
Latino youngsters, has soared. The Latino-white achievement gap 
in Illinois has been cut in half since NCLB was passed.
    In Ohio, every one of the six urban school districts in the 
state has actually improved at a faster rate than the state as 
a whole, narrowing the long and large gap between cities and 
suburbs.
    In fact, if you want to see something interesting, take a 
look at our big city school districts in general. Largely due 
to incredible work being done by the Council of Great City 
Schools, we are seeing much faster improvements in many of our 
big cities than ever before, and as you know, those results are 
finally starting to add up nationally. The most recent results 
from the National Assessment of Education Progress long-term 
trends at the elementary shows record performance in both 
reading and math for all groups of kids, and a smaller black-
white and Latino-white achievement gap than we have ever had in 
this nation's history. We are finally, in other words, 
beginning to turn the ship in a more promising direction.
    Now, remember, the law didn't do this, dedicated educators 
around the country did, but the important thing to know is that 
educators, thousands of them around the country, are stepping 
up to the challenge that you gave them.
    Let me talk, though, not just so much about progress but 
about three areas that are terribly important for us to focus 
on.
    First is getting more help to the schools that continue to 
be low-performing. As I know many of you here, when you talk to 
folks in your districts, there are some schools that are 
responding to the pressure in not-so-positive ways.
    They are narrowing the curriculum. They are teaching to the 
test. They are doing things that, frankly, are not going to pay 
off for kids.
    In fact, when I visit high-performing, high-poverty schools 
around the country, that is not what I see.
    What I see instead are robust, exciting education, lots of 
projects, lots of art and music, and the kids are learning that 
way, but many struggling school educators don't know that. We 
need to provide the more help, and you could actually help by 
funding the school improvement grants that you have authorized 
but never actually put any money to. So help for schools is one 
thing.
    Number two is the teacher quality issue that some of you 
raised earlier. One of the things that low-performing schools 
need most is high-quality teachers.
    You knew that well when you crafted the teacher quality 
provisions of No Child Left Behind, but the department has not 
taken those requirements seriously. The rules are very unclear. 
The result of that is very simple.
    Number one, states can do anything they want, and here is 
the consequence.
    States that stepped up and took their responsibilities 
seriously ended up looking bad. Those that simply declare any 
old teacher as being highly qualified no matter how much 
evidence there is to the contrary to look good.
    So there is a perverse situation here that is not very 
helpful. The second that has happened is you have lots of 
unnecessary fear.
    When you crafted the highly qualified teacher provisions, 
what you said is teachers that do not meet them get help, but 
you know what they think? They think they will get fired. There 
is nothing like that in the law, but the department has failed 
to tell people that, which has created all that unnecessary 
fear.
    We need to fix that, and we need to take seriously the 
requirements in the law that poor kids get their fair share of 
high-quality teachers. There has been no attention to that 
whatsoever. One final area is one also mentioned by several of 
you, and that is SEP services.
    You certainly know that, by year three, if schools are not 
making progress, their children are supposed to get 
supplemental services.
    You actually established very specific requirements asking 
states to set careful requirements for the quality of those and 
to monitor those, but the department ignored those, as well, 
with the result that low-income kids are becoming an 
experiment, both for private sector and badly organized public 
sector programs. I think we need to remind the department this 
is hugely important to take this much more seriously. So when 
you come back to reauthorization, you actually know, is this 
working or not?
    Finally, let me just remind you that when you passed this 
law, you showed very, very important leadership in charting a 
new course in Federal education policy. While there is still a 
lot more work to be done, and you certainly all know that, now 
is certainly not the time to rest on our laurels. It is very 
important for us to recognize, at the same time, that we are on 
the right path. Kids are learning more. The initial results are 
promising, especially in the elementary grades. We need to stay 
the course in saying clearly that all kids in this country 
count. Thank you very much for your time.
    [The prepared statement of Ms. Kati Haycock follows:]

   Prepared Statement of Kati Haycock, Director, the Education Trust

    Mr. Chairman, Mr. Miller, and Members of the Committee, thank you 
for the opportunity to testify this morning.
    As Director of the Education Trust, I'm privileged to spend most of 
my time with educators who are working hard to boost the achievement of 
all of their students. Just this last week, I was in Charlotte, North 
Carolina, New York City, Bismarck, North Dakota, and Indianapolis. 
Through these travels, I've gained a unique perspective on the No Child 
Left Behind Act.
    Everywhere I go, you can bet that I hear about NCLB. As you might 
guess, it's not all positive, but let me start off this morning by 
saying that, despite the shortfalls in funding and the anxiety about 
AYP, this law is having a dramatically positive impact on American 
education. Nobody thinks the law is perfect. But educators in every 
part of this country have told me that this law strengthens the hands 
of those who are working to improve overall achievement and close the 
achievement gaps that have for too long plagued our schools and our 
nation.
    I know that this is not always the story you hear and that at times 
the complaints have been loud and at times even angry. In part, it was 
inevitable that there would be pushback against a law that is such a 
bold assault on the status quo. Moreover, NCLB presses hard on the 
important issues of class and race and those issues--as critical as 
they are for us to face squarely--continue to be hard and uncomfortable 
issues for most Americans to confront.
    In fact, we've chosen for a very long time not to confront them. 
Instead, as a society we've swept issues of inequality in public 
schools under the rug. And that's allowed too many schools and 
districts to grow complacent about the dead-end trajectories of low-
income and minority students, students with disabilities, and English-
language learners. Before NCLB, state systems of accountability 
accommodated, rather than challenged, persistent patterns of school 
failure. Meanwhile, education grew more and more important in 
determining economic mobility and civic participation as well as our 
collective prosperity and security.
    While some pushback was inevitable, it is also the case that a lot 
of good will has been squandered and momentum undercut by the U.S. 
Department of Education's mishandling of the law.
Early Results Are Positive
    Despite all the pushback and rancorous rhetoric, NCLB is working to 
focus more attention, energy, and resources on improving the education 
of poor and minority students than at any time since I started doing 
this work more than 20 years ago.
    While this new focus is inspiring and altogether positive, it would 
not be so significant if it weren't leading to actual gains in student 
learning. Again, though, there is some good news, especially at the 
elementary grades and in middle school math. Across the country, most 
states have made simultaneous progress in raising overall achievement 
and closing the gaps.
    In Minnesota, for example, the percent of Black fifth-graders 
proficient in math has more than doubled in the last five years and the 
Black-White achievement gap has shrunk by 10 points, and most of the 
progress has come in the last three years-since NCLB's passage. In 
Illinois, achievement in math has been consistently rising among Latino 
fifth graders and the Latino-White achievement gap has been cut in half 
since NCLB was enacted--from 31 to 15 percentage points in three years. 
In Ohio, every one of the six largest districts in the state has been 
improving at a pace more quickly than the state overall, narrowing the 
gaps between cities and suburbs. This is exactly what we all hoped 
would come out of NCLB: greater focus that would lead to rising student 
achievement overall and accelerated gains for the students and schools 
that were farthest behind.
    These test score results represent the foundation of better 
opportunities and brighter futures for these students. They represent 
improvements in classroom instruction and more strategic use of data to 
understand and address individual students' needs--but most of all they 
represent the tireless efforts and dedication of those in our schools: 
teachers, counselors, principals and superintendents. We owe these 
educators a debt of gratitude, especially those who are working and 
succeeding in our highest poverty schools and proving that it can be 
done--that we can teach all students to high standards in our public 
schools.
    NCLB called on educators to embrace a new challenge--not just 
access for all, but achievement for all. Thousands upon thousands are 
answering that call. I want to mention just a couple to serve as 
illustrations of what is happening around the country.
Centennial Place, Atlanta, Georgia
    In Centennial Place Elementary School in Atlanta, Georgia, 
Principal Cynthia Kuhlman says she hardly thinks about NCLB's 
accountability goals. ``AYP is not good enough for us,'' is what she 
says. Centennial Place educates more than 500 students, 90 percent of 
whom are African-American and two-thirds of whom are from low-income 
families and has been one of the top schools in the state in academic 
achievement for several years running. Centennial Place students learn 
mostly through projects, turning a classroom into a plane for a trip to 
Africa in one lesson, building a tundra out of cake and ice cream for 
another. ``The best way to do well on the test is to teach the 
standards in an exciting way,'' says Principal Kuhlman.
    Centennial Place is also very strategic about analyzing test 
results and feeding them in to a continuous improvement process. Last 
year, they noticed that students with disabilities were lagging, 
although still above Georgia's AYP targets. Listen to how Principal 
Kuhlman responded: ``We took it to heart. We went through a period 
where we didn't acknowledge that our special education students weren't 
doing well. No Child Left Behind helped us focus.'' The result? In 
2005, 87 percent of students with disabilities met or exceeded 
standards in math, and 85 percent in reading. Centennial Place is not 
just a good school for poor, urban students. It is a good school that 
any of us would be lucky to have for our own children.
Granger High School, Yakima Valley, Washington
    Another example comes from the rural Yakima Valley in Washington 
State. Granger High School educates mostly Latino (82%) and Native 
American (6%) students, most of whom (84%) come from low-income 
families. In 2001, Granger scores on Washington's test were near the 
bottom: 20 percent of students were proficient in reading, 11 percent 
in writing, and just 4 percent in math. Principal Richard Esparza has 
worked every way he knows how to turn around the culture of low 
expectations and serious discipline problems throughout the school. 
Every teacher is asked to advise students and every teacher is asked to 
make home visits. When teachers don't want to go these extra miles, 
Esparza has a practiced speech where he offers to write them 
recommendations to find other jobs. But nothing is going to get in the 
way of his helping students succeed. The results: In 2005, 61 percent 
of students were proficient in reading, 51 percent in writing, and 31 
percent in math.
    All of this progress was accomplished while the graduation rate has 
dramatically increased, and at a time when Washington State tightened 
definitions for calculating graduation rates. Still, Granger did not 
make AYP last year. Esparza knows why and he's focusing on more 
improvements. His feeling about NCLB? ``I love it,'' he says, ``It has 
to happen if our nation is going to be competitive.'' While the law 
needs to be tweaked, Esparza is emphatic: ``Hold schools accountable. 
Don't let schools like mine off the hook.''
    These schools--like many others that my colleagues and I know and 
work with in every part of the country--aren't grumbling about NCLB, 
but instead are thinking deeply about how to make sure their students 
learn what they need. This is not easy or simple work, but the 
dedicated professionals in these schools know that they are providing 
children with the single best way to secure a place in our economic, 
civic and cultural mainstream. If you want to understand just how 
complex it is, you can read detailed profiles of these and other 
successful schools at www.achievementalliance.org.
    As important as it is to focus on schools in high-poverty areas, 
NCLB has served another equally important purpose. It is shining a 
bright light on previously invisible students in our suburbs and small 
towns. Students of color and poor students have languished in many 
affluent and middle class districts, while success was measured only by 
the performance of top students or based solely on overall averages. In 
yesterday's New York Times, Samuel Freedman wrote eloquently about the 
struggle for equity in Princeton, New Jersey--a highly educated, highly 
affluent district that didn't make AYP because of low achievement among 
African-American students--an achievement gap that has been 
acknowledged but somehow not closed for years. Freedman reports that 
Black parents credit NCLB with finally focusing attention on their 
struggle, and finally making the school district pay attention to their 
children.
What Needs to Happen Next?
    There is no question that NCLB has focused teachers and education 
leaders all over the country on improving outcomes and closing 
achievement gaps. But we are a long way from translating this increased 
focus into increased student achievement at all levels and all schools: 
Middle school reading achievement nationally has not been improving as 
much as mathematics, and overall achievement in high schools has been 
stagnant or declining in many states, even as achievement gaps grow 
wider. It is clear we need more attention from policymakers, more 
resources, and more effective strategies for improving secondary 
schools.
    Moreover, while there was some good news in lower and middle grades 
from the NAEP long-term trend assessment data released earlier this 
year, we can not fairly attribute this progress specifically to NCLB. 
In about a month or so, the new Main NAEP results will allow us to look 
much more precisely at whether the focus from NCLB has actually helped 
to improve achievement nationwide.
    While we will all hope for more good news when NAEP results are 
released, we already know that there's much more work that needs to be 
done. One of the most pressing issues is to provide more help to the 
schools that are not meeting accountability goals under NCLB. While 
there are a lot of schools that are focused on improving, some schools 
are struggling with the challenges in ways that are not constructive.
Teaching to Test: Not Inevitable, Not Advisable
    Chief among the concerns are that some schools are responding to 
the challenges by resorting to rote teaching, obsessive test 
preparation, or narrowing of the curriculum. These responses are 
neither inevitable nor wise. In fact, in all of my travels and all of 
my research, I have never come across a high-performing school that was 
inordinately focused on ``drill and kill'' or test-prep strategies. 
High-poverty schools where students are excelling tend to be the most 
dynamic, creative, engaging learning environments I come across.
    Many struggling schools don't have the staff expertise or external 
support to raise achievement. That's how they became struggling schools 
in the first place! The counter-productive responses to new assessments 
and accountability that no one supports are the actions of educators 
who desperately want to do better, but simply lack the capacity, know-
how and resources to do what experience tells us works best. And they 
don't get the help they need, at least in part because when central 
school district offices, state departments, and even the U.S. 
Department of Education were established, they were not designed to 
assist low-performing schools. We need to build that capacity, and 
quickly.
    Offering more expert help to the schools that have not made AYP 
will cost money. Congress could advance these efforts by funding the 
school improvement grants in section 1003(g) of the No Child Left 
Behind Act, which are in the statute but have never been funded. 
Funding section 1003(g) at authorized levels would double the federal 
investment in the school improvement process and would provide critical 
help where it is needed the most.
    We at the Education Trust work with lots of low-performing schools 
that need help to use their resources more effectively, and helping 
schools identify ineffective practices and implement more effective 
instructional strategies should be a focus of section 1003 (g) funds. 
But we also see that many of these schools need more resources. Nowhere 
is their need more acute than with respect to teacher quality.
Teacher Quality
    Despite knowing the importance of teacher quality, especially for 
students with little support for education outside of school, and 
despite all of the lofty language and public commitments to closing the 
achievement gap, we systematically assign our most vulnerable students 
to our least qualified, least experienced teachers. When there are 
shortages, poor and minority students get out-of-field teachers; as 
teachers accrue valuable experience, they often transfer into--and are 
paid more to teach in--the most affluent schools. So high-poverty and 
high-minority schools tend to have a harder time recruiting quality 
teachers, and then serve as a revolving door for the novice teachers 
they help train.
    Congress knew very well that teachers are the most important factor 
in education, and also recognized the significant problems in teacher 
quality and distribution. By including major teacher quality provisions 
in NCLB, Congress brought federal policy in-line with what research 
documents is the most important issue in raising student achievement 
and closing gaps.
    The teacher quality provisions in NCLB embody three basic 
principles:
    <bullet> First, all students are entitled to qualified teachers who 
know their subjects.
    <bullet> Second, parents deserve information on their children's 
teachers and the qualifications of teachers in their schools.
    <bullet> Finally, NCLB recognizes that states, school districts and 
the national government have a special responsibility to ensure that 
poor and minority students get their fair share of qualified, 
experienced teachers.
    Congress increased funding for teacher quality initiatives by 50 
percent (from $2 billion to $3 billion each year), targeted the money 
to high-poverty school districts, and gave local officials nearly 
unfettered discretion to spend the money in ways that were tailored to 
local circumstances. School districts could offer expanded professional 
development to teachers who weren't yet highly qualified and offer 
bonuses or other incentives in their hardest to staff schools.
    What's happened with all the new money and all the new focus on 
teacher quality? No one knows.
    Unfortunately, the U.S. Department of Education has not actively 
implemented the teacher quality provisions. For the first two and half 
years after NCLB was enacted, the Department refused to exert any 
authority at all over the states' implementation. The Department did 
not ask for and did not review state definitions or plans. Guidance 
from the Department has been erratic and inconsistent--both across 
states and over time.
    Take the straightforward issue of accountability for the teacher 
quality provisions. The consequences of failing to meet the teacher 
quality goals are spelled out in section 2141 of the law. Despite the 
clarity of these provisions, persistent rumors suggest that teachers 
will lose their jobs if they don't meet their state's ``highly 
qualified'' definition, and that school districts will lose federal 
funds if they do not meet the goals. Nothing in the statute authorizes 
or even suggests these Draconian consequences, but the U.S. Department 
of Education has not seen fit to dispel these misunderstandings. It is 
inexplicable that the Department has not been able to clarify the most 
rudimentary issues with respect to the teacher quality provisions.
    What we are left with is a bold policy initiative from Congress 
that has never seen the light of day. Billions of dollars in new 
federal money have been poured into teacher quality initiatives with no 
federal oversight. This vacuum of federal action has allowed states to 
game the system, making compliant states look bad and conniving states 
look good. Most states have taken advantage of the Department's lax 
enforcement to report that almost all classes already are taught by 
highly qualified teachers, even in the highest poverty schools. This 
despite years of research about grave shortages in certain subjects, 
such as secondary math and science.
    Even more disturbing has been inaction on the inequitable 
distribution of teacher talent. Congress required each state to develop 
a plan to measure and address the disproportionate assignment of 
unqualified, inexperienced, and out-of-field teachers to poor and 
minority students. The Department has never issued regulations or 
guidance detailing what those plans should include, nor have they ever 
asked states to produce such plans, or even reminded states of these 
obligations.
    These provisions are critically important for closing the 
achievement gap and for fulfilling our fundamental obligation of 
equality in opportunity. But for all intents and purposes, these 
provisions have been interpreted out of the law. Through a grant from 
the Joyce Foundation, we are working with three Midwestern states, and 
the three biggest cities in these states, to measure and address the 
distribution of teacher quality. With the help of researchers at 
Illinois Education Research Council, we have recently shared data with 
policymakers in Illinois that documents the striking disparities in 
access to teacher quality based on poverty and race. We are finding 
that we need to initiate a process that Congress required more than 
three years ago, but that has been ignored. And the states with whom we 
are working may be among those who are dealing most proactively with 
the problems of inequitable distribution of teacher quality--in many 
other states, they have yet to even acknowledge the disparities in 
access, let alone craft a plan to address the problems.
Supplemental Services
    NCLB requires schools that miss goals for three or more years to 
offer tutoring to low-income students, referred to under the law as 
``supplemental services.'' These services are paid for by school 
districts with a set-aside of their federal funds equal to as much as 
15 percent of the school district's allocation. That means that almost 
$2 billion is available this year for low-income parents who choose to 
take advantage of these new opportunities.
    The law establishes very specific responsibilities for states to 
evaluate the quality and effectiveness of supplemental service 
providers in section 1116(e). These evaluations are critically 
important because supplemental services represent a new and untested 
improvement strategy. Unfortunately, the U.S. Department of Education 
has failed to enforce these provisions, relying solely on ``the 
market'' to serve as the arbiter of quality in this educational 
experiment with students from low-income families.
    The low-income parents that have entrusted their children to these 
state-licensed providers did not sign up to make their children guinea 
pigs for the private sector, or, for that matter, badly organized 
public-sector programs. Failure to hold states to their 
responsibilities in evaluating supplemental service providers 
represents an inappropriate disregard for the interests of low-income 
students. It also undermines the knowledge base on which to evaluate 
this innovative program's effectiveness.
    Congress demanded evidence on which parents could make individual 
choices, states could make policy determinations, and on which Congress 
itself could act in subsequent authorizations. The Department's lack of 
enforcement means that parents are in the dark, and that, with respect 
to supplemental services, we may go in to the reauthorization of NCLB 
with the same tired debates based on ideology, not evidence.
Conclusion
    Almost four years ago, this Committee showed great leadership in 
charting a new course in federal education policy. There is much more 
work still to do and new challenges continue to emerge. Thanks in large 
measure to NCLB, however, the nation is finally getting traction on 
correcting the deep inequities that have for so long stunted the growth 
of so many of our young people and dishonored our democratic ideals. 
Because of NCLB, achievement gaps are no longer simply tolerated; a 
culture of achievement is taking hold in our schools, and we are better 
poised to confront the new challenges.
    Now is no time to rest on our laurels. Decades and even centuries 
of neglect and discrimination are not reversed in three years' time. 
Now is the time to show resolve and press forward. It will take more of 
your attention and more of our combined resources to close the 
achievement gap once and for all. None of this will come easily, and it 
will demand more of your courage.
    First and foremost, however, we need to recognize that we are on 
the right path, we are seeing some promising results, and we need to 
stay the course on demanding that all students count. Every child 
growing up in America deserves a strong education, and NCLB--while 
certainly not perfect--has sent that message loud and clear.
    I thank you for the honor of testifying before you today and look 
forward to answering your questions.
                                 ______
                                 
    Chairman Boehner. Let me thank both of you for your 
excellent testimony. Because not all members got a chance to 
ask questions in the first round, I would like to recognize the 
gentlelady from Illinois, Ms. Biggert, to begin the questioning 
in this round.
    Ms. Biggert. Thank you, Mr. Chairman, and first of all, I 
would like to congratulate Dr. Jewell-Sherman. I think that the 
results that you are seeing and the improvement every year is 
really an accomplishment, and I think that is exactly what No 
Child Left Behind envisioned would happen in schools, 
increasing that progress dramatically. You must be doing the 
right thing.
    Ms. Jewell-Sherman. Thank you.
    Ms. Biggert. I would like to ask you because so many people 
tell us that there is not enough funding, that we mandated an 
unfunded mandate. I don't believe that we mandated an unfunded 
mandate with the money.
    I think because we have put more money into this, it really 
is the highest domestic policy issue. We have put the most 
money into it from our discretionary funding, but there still 
is the funding for IDEA. I am wondering if people are confusing 
the fact that we are funding that at 19 percent.
    We have not reached the 40 percent, which we are trying to 
do, but have increased the funding so much.
    Do you think that the under-funding of IDEA is affecting 
the No Child Left Behind program? Is that where the issue is? 
Is it because IDEA money can't be used for the programs here?
    Ms. Jewell-Sherman. That is not what I have heard. What I 
continue to hear, as have you, is that IDEA is under-funded, 
but I think it is a separate conversation regarding NCLB.
    The expenditures in our district for the reforms run about 
$8 million a year, and that does not include the cost for local 
transportation for students who exercise the school choice 
option.
    It does not include the cost for transportation of children 
who are utilizing SES, nor does it underwrite the employee in 
each one of our schools that we have hired to monitor SES 
programs. So it is those kinds of costs that are coming out of 
individual districts that I think are causing people to have 
that concern.
    Ms. Biggert. Thank you.
    You talked about the programs, and I know that, in Chicago, 
they had a problem or wanted to use tutoring rather than the 
students leaving the school and going to another school when 
they didn't meet the average yearly progress, and finally 
were--there was a waiver that they could--and because of the 
numbers--could hire more tutors, not just from the private 
companies but have their own program itself, and it has worked. 
Because we see in Chicago, the numbers increasing dramatically. 
When you talked about having a different timing for the 
supplemental programs, did you mean, that by doing the tutoring 
before the transfer out of the school?
    Ms. Jewell-Sherman. Absolutely. We have found that it works 
more effectively.
    Parents are interested in keeping their children, if they 
can, in their neighborhood schools, and school choice doesn't 
provide for that.
    Another challenge for us initially was that our receiver 
schools had to be high-performing schools, and we started out 
with very, very few of those. But I think one of the reasons 
that SES is also working effectively in our district is, as I 
have said, we have hired a teacher in each one of our buildings 
who monitors SES provisions. She links the services between 
classroom teachers and private and other providers.
    She or he contacts parents to make sure that students are 
in attendance, because SES doesn't help if children don't 
attend. I think that all of those strategies have worked 
effectively in our district to make sure that SES is truly 
targeting the weak areas that students have in their learning.
    Ms. Biggert. Thank you.
    Ms. Haycock, have you found that there is a commonality in 
the schools that are really being able to turn around and 
really increase dramatically the performance?
    Ms. Haycock. That is actually a very good question.
    The answer is that no two schools are going about 
improvement in quite the same way, but there are four or five 
things in common in all of the high-performing schools and 
districts.
    One is a real clarity about the standards for kids with no 
vagueness about what work is good enough.
    Two is teachers who really know their subject and who know 
how to teach it.
    Three is a lot of support for teachers, especially around 
curriculum, not leaving them on their own to figure out how to 
teach things, and four is extra instructional time for kids who 
arrive behind. Through those kinds of practices, we are getting 
higher achievements for all kids, frankly.
    Ms. Biggert. Thank you both for the job that you are doing. 
I yield back.
    Ms. Drake [presiding]. Thank you.
    Next we will recognize Mrs. Woolsey, the gentlelady from 
California.
    Ms. Woolsey. Thank you very much.
    In the next Congress, we are going to----
    Thank you for your excellent testimony. We are going to re-
authorize No Child Left Behind.
    So I am going to ask you three questions that I think we 
have to deal with when we look at the reauthorization and the 
fixes that I believe need to be put in place. But I would like 
your quick responses, and if we run out of time, I will stay 
for another round to hear more from you.
    First, if you could make one change to AYP to enable it to 
better promote academic progress and to close the achievement 
gap, what would it be?
    Second, how can we change No Child Left Behind to ensure 
that the consequences for schools that are identified as in 
need of improvement, in fact help those schools to improve, not 
punish them?
    Third, how can we, without more testing, ensure that 
schools have a broad enough curriculum so that kids are well 
rounded, they have social studies, art, science?
    Those are my three questions.
    Ms. Haycock. Go ahead.
    Ms. Jewell-Sherman. The first question, what would I like 
to see changed, I would like to have the flexibility to sustain 
our academic gains by not having to withdraw additional 
resources from previously low-performing schools. The 
challenges continue with each cohort of students coming in, and 
in a district like Richmond, where we have 40-percent mobility, 
the students who we have in eighth grade are not necessarily 
students that were with us from kindergarten all the way to 
that point, and so, I need to be able to continue to support 
the kids of initiatives that we have undertaken in our various 
schools.
    In terms of what could be done to help, taking into account 
some type of growth model would be extremely helpful. With an 
84-percent full accreditation and 76-percent AYP, and having 
met the performance benchmarks in every area except one, our 
school division did not make AYP, and that was because .62 
percent of our Hispanic students didn't score highly enough in 
English.
    The fact that we have improved over, I think, 8 percent 
over the course of three years is not factored into that, and 
so, some measure of growth where you are actually showing 
growth--we are six-tenths of 1 percent away from that 95 
percent benchmark in participation. So that would be extremely 
helpful. I am sorry. The last question was----
    Ms. Drake. Why don't we come back to that on the second 
round?
    Ms. Jewell-Sherman. Okay.
    Ms. Drake. Let's do one and two for you, too, Ms. Haycock.
    Ms. Haycock. Well, we certainly do believe that a well-done 
growth model addition to AYP could help. I actually would argue 
the biggest problem with AYP now is how it treats high schools.
    We are not getting traction in our high schools, and part 
of the reason for that is it is a one-grade-level assessment, 
and it is a high school drop-out figure that, frankly, most 
people are lying about.
    So we need to do a much more robust look at how to move our 
high schools ahead, because we are not getting traction there. 
Around your second question, actually, for me, the answers to 
number two and three are exactly the same, that is schools that 
are not making progress needs lots of very good help.
    We are not giving adequate help to them. You are not 
funding it adequately, but more important, states need some 
help in beefing up their capacity structure.
    So we really need to beef up their capacity structure. And 
if we do that well, frankly, the third problem you talked 
about, which is the kind of narrowing of the curriculum, will 
go away. Because, if I wasn't clear earlier, I should have 
been, in schools with high academic achievement that serve low-
income kids, we don't see narrowing, we don't see rote 
teaching, we don't see teaching the test.
    We see, instead, something very different from that, kids 
taught to standards, through projects, through high-level 
instruction, and teachers in low-performing schools need to see 
that.
    They need to know that, if they teach narrowly, they are 
not actually going to make progress. So if we do number two 
well, number three will take care of itself.
    Ms. Woolsey. Thank you. Would you like to answer the third 
one?
    Ms. Jewell-Sherman. I am of two minds. You know, it is very 
easy to say, as has been said in my district, that standards of 
learning and meeting these benchmarks are not that important. 
However, until you meet them, you are under incredible 
pressure.
    Now that Richmond Public Schools, as an example, has 
achieved a great deal of success, we are able to focus a lot of 
our energies on ensuring that the SOLs are not our sole target. 
We are looking more closely at dual enrollment participation 
and SAT scores.
    We have implemented things like foreign language programs 
at the elementary school, so that, ultimately, all of our 
students will graduate at least bilingual, and I would add, 
too, that there is a learning curve for teachers, and bringing 
them up to the point where they are able to teach using higher 
order thinking strategies has been a learning process for us as 
a school division, and more and more, our teachers are stepping 
up to the plate.
    So we are seeing a commensurate effort in improving our 
achievement on these kinds of benchmarks, while expanding what 
we call a quality education in our school district.
    Ms. Woolsey. Thank you very much.
    Ms. Drake. Thank you.
    The gentleman from Nebraska, Mr. Osborne.
    Mr. Osborne. Thank you, and thank you both for being here. 
Your testimony has been excellent.
    Ms. Haycock, I noted that you referred to the highly 
qualified teachers, part of No Child Left Behind, as being 
apparently less than what you would like to see. You also 
indicated that states can do pretty much whatever they want to 
do. The district I represent is very rural and we are having a 
lot of problems, because sometimes a teacher may be required to 
teach chemistry and physics and math, and in many cases, it is 
just not economically feasible for them to be qualified in 
every one of those areas. I wondered if, in your travels and in 
your observation, what would you recommend that we do in those 
kinds of cases. Because we certainly want teachers that are 
qualified, but at the same and by the same token, there are 
certain realities that we just have to look at.
    Ms. Haycock. It is interesting you should ask. One of the 
issues that I was in North Dakota to talk about is that very 
issue.
    They, like you, are an extremely rural state, with lots of 
very small schools and districts. There is no question that it 
is harder in small schools and rural areas to get teachers who 
have a strong grounding in their subject, but here is the 
question.
    We have essentially two choices about how we can handle 
that problem.
    We can either just slap a label on the teachers and say, 
oh, you are highly qualified, even if we know they actually 
don't have the strong grounding. Or we can say, which is what 
you said in the law, we need to give those teachers some extra 
support and education in the subjects they are teaching but 
don't have a strong grounding in. That actually was the intent 
behind the law, but the problem is, again, when people just 
rush to say, oh, we can never do this, so let's just declare 
them highly qualified, instead of saying no. The point here is 
to provide them with extra help in learning that subject 
matter, so the kids they are teaching actually have teachers 
who know their stuff. Unfortunately, a lot of states didn't 
step up to that, so they are not spending the $3 billion you 
gave them on teacher quality to help those teachers.
    They, rather, just said they are highly qualified, because 
we could never get teachers in the rural area that know this. I 
think that has not been good for teachers, and it certainly has 
not been good for kids.
    Mr. Osborne. Well, I certainly understand what you are 
saying, and I guess all of us would like to see very highly 
qualified teachers all across the country, and yet, you can 
frequently hear the complaint that, well, we are being asked to 
do all these things and we are not being given enough funding 
to do this. We have got some of the accounting offices saying, 
well, yeah, you are giving them enough money, but what you hear 
over and over again out in the countryside is we are really not 
being given enough money to implement it. And so, therein lies 
the rub, you know, because these folks, particularly in some of 
the rural areas, where they just don't have much funding, and 
they are really stretched, and like the READ money--$20,000 is 
a huge deal to these people. They are very frustrated, and I 
guess we could just say, well, you know, you have just got to 
go train these people, and you have got to get it done. I 
understand that desire, but I am just relaying to you some 
frustration that I am hearing, and maybe there is nothing more 
we can do about it than just say, well, you have to get it 
done.
    Ms. Haycock. Well, there are more things we can do about 
it, and frankly, I think what we haven't done is ask higher ed 
to play a more active role here, and that is actually why I was 
in North Dakota. It was the university system getting together 
and saying how could we support these teachers? How could we 
both prepare more teachers to teach in these small rural 
communities, but how can we provide, through distance learning, 
through other sorts of means, the support that teachers who may 
were history majors in college actually need now that they are 
teaching science as well.
    So I think, through a joint effort of K-12 and higher 
education, we can get that done if we don't just slap a label, 
highly qualified, on them, and acknowledge they actually need 
some help.
    Mr. Osborne. Okay. Well, thank you. Mr. Chairman, I yield 
back.
    Chairman Boehner [presiding]. The Chair recognizes the 
gentlelady from Minnesota, Ms. McCollum.
    Ms. McCollum. Thank you, Mr. Chair. Thank you both for your 
testimony.
    Because Minnesota schools were cited, I think sometimes it 
is important to understand the history and to know what the 
numbers actually mean. I represent St. Paul, Minnesota. I 
represented St. Paul, Minnesota, in the Minnesota House. I was 
very pleased when Patricia Harvey was hired, but she was hired 
seven years ago, not five years ago.
    Minnesota started putting reforms in our schools nine years 
ago, more dollars into testing to find out what our achievement 
gap was, to address it.
    So the reforms that we are seeing and the reforms that you 
mention are not just due to Leave No Child Behind, and I think 
the record has to reflect that and we have to be accurate when 
we reflect that we do have an achievement gap in Minnesota. We 
are very concerned about the achievement gap. Minnesota ranks, 
on college entrance exam, SAT scores, very, very high 
nationally. We are always in the top, and I have the numbers 
that I am going to submit for the record.
    I am not saying that we don't want to work to even make it 
better for every single one of our students, especially our 
students of color, but overall, white students rank 600 in 
math.
    The mean score is 536. Black students in Minnesota rank 
511. That mean score nationally is 433.
    So we want to do better, but I think, when you are citing 
states and putting them in there, sometimes people who don't 
understand that every state has its own way of reporting 
testing results. The states report different averages, and then 
try to take the time-frame of Leave No Child Behind in there, 
which doesn't necessarily paint an accurate picture of what is 
going on in Minnesota. I understand Mr. Scott has asked me to 
yield some time.
    Ms. Haycock. Could I respond to that briefly?
    Ms. McCollum. Certainly, but I want to be fair to Mr. 
Scott, because there is a vote going on.
    Ms. Haycock. I think I was pretty clear not to attribute 
anything to No Child Left Behind other than putting some wind 
behind the sails of educators who are trying to make a 
difference. But I will tell you that, in both Minnesota and 
many other states, the reform effort began earlier. But if you 
look at the numbers, what you will see is little or no progress 
in narrowing gaps in the years prior to No Child Left Behind. 
In Minnesota, for example, it was a 2-point reduction in the 
gap in the years prior, and then you see in the year following 
the implementation of the law, you see an immediate change.
    Ms. McCollum. The changes were in place. Those are 
Minnesota changes, and I have read your article on Dayton's 
Bluff. Dayton's Bluff is in my district.
    Dayton's Bluff is one of the schools that we targeted with 
extra dollars. The extra dollars have all been now cut by the 
state legislature, because they have to fund Leave No Child 
Behind. And so, we share the same goals, but I think all 
politics is local. I think I understand Dayton's Bluff quite 
well and what has happened in the St. Paul school district, and 
we need to do so much better. I am not saying we are there yet. 
I yield to Mr. Scott.
    Mr. Scott. Thank you, and I thank the gentlelady for 
yielding.
    I just want to welcome my superintendent----
    Ms. Jewell-Sherman. Thank you.
    Mr. Scott.--Ms. Jewell-Sherman, who is an undergraduate 
from New York University, Master's from Keene College and 
Harvard University, and a doctorate from Harvard University.
    I know she mentioned a lot of the remarkable progress she 
has made, and I think one of the things she did not mention was 
the fact that, when she was hired as superintendent of schools, 
the Richmond public schools had 10 schools that had been 
accredited, and her contract required her to either increase 
that to 20 or get fired for cause. She increased it to 23, and 
now, last year, it was 39, and preliminary results now, it's up 
to 43 of the 51 schools who will receive accreditation, and 
that is just remarkable progress.
    At the same time, she reduced truancy about 40 percent.
    Now, one of the things in No Child Left Behind that we are 
having a little trouble with is when you try to determine 
whether or not you have made progress, there is a perverse 
incentive to let people drop out, because they are dropping out 
from the bottom. If you have a real good high dropout rate, 
your scores will go up.
    So you have got that perverse incentive, and my question 
that I know we don't have time for an answer, but I would like 
for them to submit for the record what No Child Left Behind 
does, and how the regulations encourage dropout prevention 
programs rather than encourage dropout prevention. I appreciate 
the gentlelady for yielding.
    Chairman Boehner. The Chair recognizes the gentleman from 
Massachusetts, Mr. Tierney.
    Mr. Tierney. Thank you, Mr. Chairman.
    I just want to address one thing before we go. That is, we 
have allowed the standards for what states dictate what 
students should know, what they will be able to do, and the 
rigor by which we apply those standards vary from state to 
state.
    I am not sure that--you know, that has got a lot of discord 
going. I know schools who have set the standards high, 
obviously feel very upset that others have set their bar low so 
they get a free ride on this thing.
    What should we do about that, and how will we go about 
doing it?
    Ms. Haycock. I mean let's be honest. We have been engaging 
in a bit of a charade. We basically have allowed people to say, 
hey, math in Mississippi is different than math in Minnesota. 
You know, if we are going to head into the 21st century more 
competitive, we need to stop doing that.
    That said, that is a very tough--it is a very tough act.
    You put an important step in place when you required state-
level NAPE assessment, and those reports do, in fact, put 
pressure on states that have set their standards quite low. 
When people say, whoa, why is it that you are telling us 80 
percent of our kids are proficient, and on NAPE, only 20 
percent are, but the law itself now provides a bit of a 
disincentive for states to raise their standards. One of the 
things that you will clearly have to come back to in 
reauthorization is how can we provide a strong incentive for 
states to raise their standard to something closer to the NAPE 
level, so we can actually join the 21st century.
    Mr. Tierney. Obviously, we need a competitive strategy. In 
your own recent article when you look at the numbers, how they 
stack up, to other countries on that, we have got to find a way 
to say that everybody in this country, no matter what state you 
are from, students are ready to do whatever it is they want to 
do when they get out of high school, whether it is go to work 
or go to higher education. And the requirements for preparing 
students aren't that much different. You need the same skill 
set and knowledge to do that. I think you are absolutely right.
    We have to do something in this law that no longer lets 
people escape through this myth. So, I thank you for that.
    Mr. Chairman, you and I can chat some more about that 
later. Thank you.
    Chairman Boehner. Thank our witnesses for coming today. We 
have several votes on the floor, and I want to be polite to our 
witnesses and to our guests, and so, I want to thank you again 
for your willingness to come, and thank all of our guests, and 
this hearing is adjourned.
    [Additional submissions for the record:]

Prepared Statement of Hon. Jon C. Porter, a Representative in Congress 
                        From the State of Nevada

    Good Morning, Mr. Chairman. Thank you for holding today's hearing 
on the continuing implementation of the massive education reform, the 
No Child Left Behind Act. I would also like to welcome Secretary 
Spellings to the committee. Her leadership has allowed for the federal 
government to highlight the inherent flexibility in the law, and I am 
confident that this aspect of the law will continue to serve our 
children and communities, while improving academic success. I would 
also like to welcome our second panel of witnesses, whose practical 
experiences are absolutely necessary to continue improving federal 
education programs.
    As the federal government continues to work with state and local 
education agencies to close the achievement gap in this country, our 
committee must continue to monitor the implementation of the landmark 
reforms of the No Child Left Behind Act. As we begin to see the 
preliminary results of the supplemental education services provisions 
of the 2001 law, it is important that we keep in mind the end result-
the increase in achievement regardless of socio-economic status. By 
providing our most vulnerable children with extra academic resources, 
we are better able to ensure academic success.
    As the representative of the nation's fifth largest school 
district, I am all too well aware of the problems faced by large urban 
school districts. Additionally, I am cognizant of the need for these 
school districts to implement policies and standards that meet the 
needs of their students. As the federal government continues to 
implement NCLB, it is imperative that this committee be aware of the 
challenges faced by school districts and of the need for continued 
flexibility during implementation.
    We must seek at the federal, state, and local levels for common 
sense approaches to educating our children. I applaud Secretary 
Spellings for understanding the needs of individual school districts 
and hope that this level of accommodation of needs, without loss of 
achievement will continue. Congress, and this committee, continues to 
face the challenge of closing the achievement gap, while ensuring that 
our children are provided with the tools they need for success in the 
work place. These goals need to continue through the high school level. 
I look forward to bringing the benefits of the No Child Left Behind 
reforms to the high school level. We must continue to take what we have 
learned and apply it to our future endeavors.
    Again, thank you Mr. Chairman for holding today's hearing. I also 
appreciate the Secretary's presence and her continued dedication to 
education in our nation. I look forward to hearing the testimony of our 
witnesses, and am confident that their insights can aid us in our 
continuing pursuit of excellence in education.
                                 ______
                                 

Additional Responses Submitted by Kati Haycock, Director, the Education 
                                 Trust

    Question: There are critics of No Child Left Behind who claim that 
there are some students who will never be able to achieve at the same 
level as other children. How do you respond to those who say there are 
some students who simply can't learn?
    Response: First, it is important to define what No Child Left 
Behind (NCLB) expects, which is that virtually all children will be 
taught up to the level of proficiency in reading and math. This does 
not mean that all students will be taught up to the same level--some 
students will far exceed standards, and there will always be a range in 
student achievement. The goal of NCLB is to lift that range, so that 
all young people get the fundamental skills that enable them to be 
competitive in the world of work and to be active participants in our 
democracy.
    It is true that there are some students who, even with the most 
effective instruction and supports, will not be able to read or do math 
with proficiency. We need to make sure that NCLB's accountability 
system is sensitive and fair to the exceptional circumstances presented 
in teaching and assessing students with significant cognitive 
impairments. But we also know that far too many students traditionally 
have been categorized inappropriately and then taught to levels much 
lower than their actual ability. The challenge is to strike the right 
balance between (1) pressuring the system first to minimize 
inappropriate identifications and restrictive placements in special 
education; (2) having high expectations for the achievement of students 
with disabilities; and (3) acknowledging that some students simply are 
not going to meet the standards, and accounting for that in school 
accountability determinations. The U.S. Department of Education has 
allowed states to count up to 3% of all students (close to 30% of 
students with disabilities) as proficient when they have met 
individualized goals that are set lower than regular grade-level goals.
    Some advocates claim the 3% exemption is too small, others too big. 
As an organization, we'll be looking hard at progress in the states 
before we take a position on that question. By the time of 
reauthorization, all of us should have much better data on which to 
make decisions about which students should be assessed outside of the 
standard system. Yes, some students won't be able to meet standard 
under any circumstances-maybe as many as 3%, maybe even more. But, as a 
country, we should be making the decision to exclude only with 
reluctance because, across the country, students who most people never 
dreamed could meet standards are now doing so because their schools 
worked very hard to get them there. We ought not to step back from the 
over-arching goal of ensuring that almost every student is taught to be 
proficient in reading and math. This goal is critically important to 
our economic future and to the vitality of our democracy and civic 
institutions.
    Question: I have heard criticisms of No Child Left Behind from 
schools and districts that were rated highly by state accountability 
systems that looked at aggregate student data prior to the enactment of 
the law. Now that NCLB asks them to disaggregated data and look at 
specific subgroups the picture is not as bright. How would you respond 
to these schools and districts that complain the law is unfair?
    Response: Congress showed great leadership in requiring school 
accountability determinations to be based on disaggregated data. Prior 
to NCLB, many state accountability systems rated schools highly even 
when certain groups of students, sometimes groups that constituted the 
majority of students, were not being well educated. Schools could 
compensate for under-educating certain groups by showing excellent 
results with other groups. This allowed achievement gaps to grow--and 
grow they did. Long-term trend data from the National Assessment of 
Education Progress indicates that gaps separating Blacks and Latinos 
from White students grew over the course of the 1990s
    Schools can no longer be considered successful if they are not 
educating all groups of students they serve. This has served as a wake-
up call to educators, especially in rapidly diversifying suburbs, where 
gaps have not received much attention and where schools have not paid 
much attention to accountability in the past. The focus on 
disaggregated data for accountability is indeed shining a spotlight on 
inequities that had gone unnoticed and unresolved. As one educator put 
it, under NCLB ``there are no more invisible students.''
    The unfairness is that we let inequality persist for so long, not 
that we are confronting it now. This new definition of school success 
represents important progress in ensuring equality of opportunity in 
America. It is a definition of school success that the American public 
supports.
                                 ______
                                 

    Additional Responses Submitted by Deborah Jewell-Sherman, Ed.D, 
                Superintendent, Richmond Public Schools

    Answer to Question #1: The first step in the educational reform 
effort was to request assistance from the Council of the Great City 
Schools' support team. The Team provided an external evaluation of the 
District's instructional department, federal programs, special 
education and transportation. The report findings provided a framework 
for an action plan that cited the need for reform from the school board 
to the classroom. The action plan included revised mission and vision 
alignment, review and evaluation of instructional programs, designing 
an accountability system, designing an assessment and data management 
system, community partnership to effective operations and professional 
development.
    The second step was intervention that was received from Governor 
Warner's PASS Initiative. This intervention focused on processes and 
practices to increase student achievement.
    Finally, Philip Morris USA sponsored a partnership between Richmond 
Public Schools and the University of Richmond (Curry and Darden 
schools) to work with the School Board and administrators in creating a 
unified vision, team building, collaborative goals and the 
implementation of a Balanced Scorecard for management and 
accountability.
    Answer to Question #2: The focus on subgroup statistics in NCLB has 
provided us with the means to target reforms. The ability to focus on 
subgroups to identify gaps and to develop concentrated gap reducing 
strategies has been essential to the development of instructional 
strategies and practice for all children.
    The promotion of reforms and implementation thereof is extremely 
costly to districts. The funds directed towards the purpose are, 
however, reduced as student achievement increases. Funds are necessary 
for implementation of reforms and retention of reforms.
                                 ______
                                 
    [Whereupon, at 12:01 p.m., the committee was adjourned.]

                                 <all>

</pre></body></html>
